TOP MANAGEMENT CHALLENGES
     Department of Transportation


     Report Number: PT-2005-008
    Date Issued: November 15, 2004
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: DOT’s Top Management Challenges                  Date:    November 15, 2004
           PT-2005-008
  From:    Kenneth M. Mead                                       Reply to
                                                                 Attn. of:   J-1
           Inspector General
    To:    The Secretary
           The Deputy Secretary


           The Office of Inspector General (OIG) has identified 10 top management
           challenges for the Department of Transportation (DOT) for fiscal year (FY) 2005.
           In considering the items for this year’s list, we continue to focus on the
           Department’s key strategic goals to improve transportation safety, capacity, and
           efficiency. We have also identified three emerging issues, which we believe will
           become increasingly important to the Department over the coming years. These
           issues encompass resolving shortfalls between trust fund revenues and
           expenditures, accomplishing DOT’s missions through interdependency with other
           Federal agencies, and addressing staffing challenges in the area of human resource
           management. Further, the Department will need to adapt nimbly to changes in the
           airline industry’s financial circumstances.

           The OIG’s list for FY 2005 is summarized below and presented in greater detail
           later in this report. This report will be incorporated into the DOT Performance
           and Accountability Report, as required by law. The exhibit to this report
           compares this year’s list of management challenges with the list published in
           FY 2004.

             • Getting the Most Value From Investments in Highway and Transit
                   Infrastructure Projects
                     - Delivering Projects On Time and Within Budget
                     - Ensuring the Best Value From Transit Projects
                                                                             2

• Delivering Air Traffic Control Services and Fielding New Air Traffic
   Control Equipment While Controlling Costs in a Fixed Budget Environment
    - Funding FAA During a Period When Funding Requirements
       Significantly Outpace Revenue From Aviation Taxes
    - Addressing an Expected Surge In Controller Attrition: Where, When,
       and How Many
    - Containing Costs of Existing Projects While Effectively Managing a
       New Multi-Billion Dollar Project

• Increasing Aviation Capacity and Mitigating Delays
    - Addressing Capacity Needs in Both the Long- and Short-Term

• Ensuring Safety in a Changing Aviation Environment
   - Adjusting Safety Oversight to Current Trends in the Industry
   - Reducing Operational Errors and Runway Incursions as Traffic
        Rebounds

• Ensuring That Safety Programs Lead to More Lives Saved
   - Cutting Across Traditional Boundaries and Effectively Targeting
        Federal Grants to Areas Having the Greatest Potential for Saving Lives

• Strengthening Financial Management to Protect Federal Funds
   - Freeing Up Hundreds of Millions of Dollars in Idle Funds to Be Used
        More Productively on Active Projects
    -   Exercising Greater Stewardship Over the More Than $35 Billion
        Awarded Annually on Highway and Transit Projects
    -   Consolidating or Replacing Fragmented Financial Systems Used to
        Process Billions of Dollars Annually
    -   Implementing Cost Accounting Systems, Especially at FAA, to Help
        Executives to Improve Their Operations

• Holding the Line on Programs Conducive to Fraud
   - FHWA and FTA Programs Involving Highway and Transit
        Infrastructure
    -   FMCSA Programs Related to Commercial Drivers’ Licenses
    -   DOT’s Disadvantaged Business Enterprise Program
                                                                                   3



 • Improving Cost Effectiveness of $2.7 Billion in Information Technology
     Investments and Continuing to Enhance Computer Security
       - Departmental Oversight of IT Investments and Security: DOT Needs to
          Implement a Robust and Consistent Management Review Process
       - Departmental IT Funding and Operations: DOT Needs to Better
          Coordinate Budget Requests to Align IT Resources With
          Responsibilities

 • Restructuring the Intercity Passenger Rail System to Match Fiscal Capacity

 • Management Attention Needed to Strengthen Oversight of Title XI Loan
     Guarantees
      - Status of Areas Identified in March 2003 Audit Report
      - New Areas Requiring Management Attention


In addition to the 10 management challenges presented, this report includes the
following three emerging issues. These issues are overarching in nature, and will
require Secretarial direction or cross-modal coordination.

 • Ensuring Transportation Funds Are Adequate to Meet Growing Needs
    - Anticipated Aviation Trust Fund Revenues are Less than Projected

 • Growing Interdependency Among DOT and Other Federal Agencies to
     Ensure Safe, Secure, and Efficient Transportation
      - Transportation Security
      - Environmental Stewardship

 • Meeting Human Resource Needs Given Retirements and Changing Skill Mix
    - Addressing an Expected Surge in Controller Attrition
    - Rebuilding the Federal Highway Administration’s Workforce While
          Balancing the Changing Skill Mix

Another area we wish to mention is the issue of the financial difficulties in the
airline industry. Over the next year, high fuel prices and weakness in airline yields
are likely to continue the current financial pressures on the airline industry. Three
carriers are in bankruptcy today and most of the others are struggling to reduce
costs and restructure their operations, even low-cost carriers. With such
widespread financial problems, many of the Department’s safety and infrastructure
programs, which are geared to regulating and being financed by a more
economically stable industry, will need to adapt nimbly to these changing industry
circumstances.      Of key importance are well-planned and well-executed
                                                                                  4

maintenance and operations oversight to assure the public that financial distress
does not compromise safety and setting and adhering to priorities for funding
airport and airway infrastructure to ensure that scarce trust fund revenues are well
spent.


If you have any questions concerning this report, please call me at (202) 366-1959
or Todd J. Zinser, Deputy Inspector General, at (202) 366-6767. You may also
contact Alexis M. Stefani, Principal Assistant Inspector General for Auditing and
Evaluation, at (202) 366-1992.



                                         #
                                                                                  5




1 Getting the Most Value From Investments in
     Highway and Transit Infrastructure Projects
The extended Transportation Equity Act for the 21st Century (TEA-21)
reauthorization process has made unmistakably clear the overwhelming demand
for transportation dollars when Highway Trust Fund revenues are falling short of
what is required to meet those demands. Our work has highlighted some instances
where highway and transit funds were not effectively managed, including
identification of over $800 million in Federal obligations sitting idle during the
last 5 years and significant delays and cost increases on projects, such as the
Springfield Interchange in Virginia and the Tren Urbano transit system in Puerto
Rico.

With fewer resources to fund important transportation projects, the Department of
Transportation needs to ensure that infrastructure improvements are delivered on
time and within budget and that taxpayer investments are those that yield the
greatest benefits for the given costs. Taking these actions is critically important,
as a 1-percent improvement in the efficiency with which states managed the
$700 billion investment in highway projects over the last 6 years would have
yielded an additional $7 billion for infrastructure improvements—enough to fund
9 of 18 active major projects. At the same time, transportation program fraud
continues to deny state and transit authorities of much needed funds for
infrastructure improvements and, consequently, is cited as a separate top
management challenge in Section 7 of this report, “Holding the Line on Programs
Conducive to Fraud.”

Delivering Projects On Time and Within Budget
Our reviews of large highway and transit projects have disclosed that stronger
stewardship of the over $35 billion in Federal funds invested annually in these
projects is essential. As evidenced by its reauthorization proposal and other
initiatives, the Department’s senior leadership has taken positive steps toward
strengthening stewardship of highway and transit funds. For example, the Federal
Highway Administration (FHWA) is implementing initiatives to: (1) refocus its
oversight activities based on risk assessments of state management practices and
(2) establish a review program of grants payments to help ensure that Federal
funds are properly managed.

These initiatives are critical to strengthening oversight of project delivery and
financial stewardship, but will require a fundamental change in the way FHWA
conducts business. A recent audit found that the FHWA risk-assessment process
                                                                                  6

could be strengthened to enhance the reliability and consistency of assessment
results and facilitate analysis to identify program-wide risks. For example, the
Texas Division Office rated work zone safety as satisfactory, although they had
14.3 percent of the Nation’s work zone fatalities—the highest of any state. In
contrast, the Illinois, Ohio, and Delaware Division Offices, with work zone
fatalities accounting for 0.2 percent to 3.6 percent of nationwide fatalities during
the same period, rated their work zone program risk higher.

Implementing FHWA’s grant management initiative will also be challenging as
FHWA continues to lack basic performance data on highway projects. Our review
of the management information system used by FHWA to monitor the
performance of more than 120,000 Federal-aid project segments disclosed that the
system does not capture project cost and schedule data needed to determine
whether FHWA is successfully achieving the Department’s performance goals or
to determine how well states are managing Federal-aid funds.

For example, the lack of project data in this system has made it difficult for
FHWA to measure whether it is meeting the Department’s President’s
Management Agenda goals of ensuring that at least 95 percent of major Federally
funded infrastructure projects meet, or come within 10 percent of, cost and
schedule estimates established in project or contract agreements. FHWA must
rely on data calls to state departments of transportation and project officials for
cost and schedule information, which is then manually maintained on a
spreadsheet by FHWA.

Ensuring the Best Value From Transit Projects
The Federal Transit Administration’s (FTA) New Starts program relies on full
funding grant agreements, which are long-term funding commitments that help
meet the financial requirements of large transit projects. Because FTA awards
relatively few of these agreements each year and funding to support the pipeline of
New Starts projects is limited, it is crucial that only the most promising projects
are selected as candidates for funding. As of the most recent annual report, there
were 27 New Starts projects with full funding grant agreements and another 37 in
the pipeline that were collectively seeking $24.3 billion in Federal funding.
However, the proposed House transit reauthorization bill authorizes
$9.5 billion to fund all New Starts program expenses over 6 years and $4.8 billion
for grant agreements that extend beyond the 6 years.

Our recent testimony of FTA’s rating and evaluation of New Starts transit systems
stated that while FTA’s current evaluation process is much better than in years
past, highway congestion relief benefits are not directly accounted for in the
evaluation criteria. Because congestion relief must be a critical element in
justifying New Starts projects, the FY 2005 House Committee on Appropriations
                                                                                 7

Report directed FTA and FHWA to determine how congestion relief could be
implemented as an evaluation procedure and rating in the New Starts process. Our
audit also noted that projects are proposed for funding based on equal weightings
of cost effectiveness and land use. Further, based on a review of projects that
were proposed in the early 1990s and are now in operation, we found that local
ridership estimates (which are an important factor in evaluating projects) were not
consistently reliable. Addressing these issues would facilitate a more consistent
selection of projects that provide the greatest tangible benefits.


For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

   • October 2003 Finance Plan for the Central Artery/Tunnel Project

   • The Rating and Evaluation of New Starts Transit Systems

   • DOT FY 2004 Budget and Management Challenges

   • Opportunities to Control Costs and Improve the Effectiveness of
     Department of Transportation Programs

   • Controlling Costs and Improving the Effectiveness of Federal Highway
     Administration and Federal Transit Administration Programs
                                                                                    8



 2 Delivering Air Traffic Control Services and
      Fielding New Air Traffic Control Equipment While
      Controlling Costs in a Fixed Budget Environment
A continued focus for the Federal Aviation Administration (FAA) this year will be
delivering safe, efficient, and cost effective air traffic services as well as systems
that been delayed for years within an extremely tight budget environment. This
past year, we have seen positive signs from Administrator Blakey and her staff as
they began reining in FAA’s longstanding, unabated operating cost growth.
However, FAA is not used to operating in this type of environment, and to instill
cost control within the Agency’s organizational culture will require a long-term
and focused commitment on the part of management.

We see three key issues that will need to be addressed over the next several years:

   • Funding FAA’s budget during a period when funding requirements
     significantly outpace revenue from aviation taxes,
   • Addressing an expected surge in controller attrition, and
   • Containing costs and fielding existing modernization projects that have
     been delayed for years while effectively managing a new multi-billion
     dollar project.

Funding FAA During a Period When Funding Requirements
Significantly Outpace Revenue From Aviation Taxes
Although air traffic levels have shown improvement from the sharp declines of
2001, there still remains a substantial decline in projected Aviation Trust Fund
revenues. In fiscal year (FY) 2000, the Trust Fund collected $10.5 billion in
revenue; however, in FY 2003, the Trust Fund collected only $9.3 billion in
revenue, a reduction of 12 percent. Those decreases can be attributed largely to
reduced yields from the 7.5-percent ticket tax because of lower fares and lower
enplanements. However, while revenues have declined, FAA’s budget has
increased substantially over the same time frame. Between FY 2000 and
FY 2003, FAA’s budget increased from $10.9 billion to $13.5 billion, an increase
of 24 percent. In FY 2005, FAA’s budget is expected to exceed Trust Fund
revenues by over $3 billion.

In FY 2000, none of FAA’s budget was funded from the General Fund. In
contrast, over $3 billion (or 22 percent) of FAA’s FY 2004 budget was paid for by
the General Fund. As FAA increasingly turns to the General Fund to make up for
revenue shortfalls, the Agency will be competing with other critical Federal
                                                                                                                        9

programs for dollars during a period when the Government is facing a substantial
Federal deficit.

There are a handful of difficult options—none of them easy—to address the
expected mismatch between funding availability and projected funding needs.
First, adopt a “do-nothing approach” that would freeze budgets at levels consistent
with resource projections. Second, turn to the General Fund to subsidize growing
shortfalls; an option which is problematic during times of Federal deficits. The
third, and perhaps most painful, option would be to reevaluate the current tax
structure and determine what alternatives exist to more efficiently align users and
costs through changes in the tax structure or by imposing user fees.


                          Figure 2-1. FAA: Agency's Budget vs. Trust Fund Revenues

                  $14

                                                                                         $13.8          $14.0
                  $12                                     $13.5          $13.5
                                          $12.1
                  $10     $10.9
                                  $10.5
  $ in Billions




                  $8                              $10.1                                                         $10.7
                                                                  $9.9
                                                                                 $9.3            $9.7
                  $6

                  $4

                  $2

                  $0
                            FY 2000         FY 2001           FY 2002      FY 2003         FY 2004        FY 2005*

                                                  FAA's Budget     Trust Fund Revenues



                          Source: OIG Analysis of FAA Data.
                        * Estimated


Addressing an Expected Surge in Controller Attrition: Where,
When, and How Many
Controlling operating costs will continue to be a major focus for FAA. Although
FAA has made progress in beginning the process of reining in a history of
unabated cost growth in the operations account, achieving further reductions in
operating costs represents a tremendous challenge as salaries and benefits make up
approximately 73 percent of FAA’s operating budget. Initiatives such as new air
traffic systems, technological improvements, efforts to redesign the National
Airspace System, consolidating locations, and actions to correct longstanding
staffing imbalances all have the potential to significantly improve productivity.
                                                                                                                      10

An important issue this coming year will be starting negotiations with FAA’s
largest union, the National Air Traffic Controllers Association, over a new
contract. The current contract, which was extended, is due to expire in
September 2005. Another key issue FAA will need to address is determining how
many controllers it will need and where and when it will need them. FAA
estimates that nearly half the controller workforce will leave the Agency between
FY 2005 and FY 2012. To hire and train that many controllers within a severely
constrained operating budget, FAA must identify ways to make every stage of its
process for hiring, placing, and training new controllers more efficient and cost
effective. Currently, it takes an average of 3 years for new controllers to become
fully certified. FAA is working on a congressionally mandated plan to address
controller staffing, which is due to be completed by the end of December. As part
of our ongoing audit of FAA’s initiatives to address controller staffing, we will be
reviewing FAA’s plan.

                   Figure 2-2. FAA Air Traffic Controller Attrition
                        Compared to Retirement Eligibility*
     1600
                               Actual                               Estimated
     1400
                                                                                                       1,186
     1200                                                                                          1,081
     1000                                                                                        971
                                                                                           864
      800                                                                      757 808

      600                                                                537
                                                       405 450 437
      400
                   253 271 238 246 235 257
      200 204
        0
          96

          97

          98

          99
          00

          01

          02

          03

          04
          05

          06

          07

          08

          09

          10

          11

          12
       19

       19

       19

       19

       20

       20

       20

       20

       20

       20

       20

       20

       20

       20

       20
       20

       20




                                Attrition         Controllers Becoming Eligible to Retire

              Source: OIG Analysis of FAA Data.
            * Attrition data are as of May 2004. The number of controllers becoming eligible includes only those
              controllers reaching retirement eligibility in that year and does not include prior years. Retirement
              eligibility estimates are as of December 31, 2003.
                                                                                                                                    11

Containing Costs of Existing Projects While Managing a New
Multi-Billion Dollar Project
FAA’s Facilities and Equipment account, which funds the Agency’s major
acquisitions, has decreased from $2.9 billion in FY 2004 to a requested level of
$2.5 billion for FY 2005. The Agency’s January 2004 Capital Investment Plan
shows that funding for this account is expected to remain in the $2.5 billion range
for the next several years. FAA major acquisitions have a long history of cost
growth, schedule slips, and shortfalls in performance. In fact, in FY 2003, we
reported that 14 of 20 major acquisitions accounted for cost growth of over
$4.3 billion. The cost growth alone accounts for more than one year’s budget for
modernizing the National Airspace System.

FAA is now in the position of funding projects that have been delayed for years
while starting an ambitious $2.1 billion project called the En Route Automation
Modernization effort to replace the Host, which is the central nervous system of
the National Airspace System. Two projects in particular that have been
chronically delayed and over budget are the Standard Terminal Automation
Replacement System (STARS)—a new controller terminal computers and display
system—and the Wide Area Augmentation System (WAAS)—a new satellite-
based navigation system. Table 2-1 shows cost and schedule variances associated
with these programs.

                               Table 2-1. Cost and Schedule Variances

                                   Estimated                     Percent            Implementation              Implementation
       Program                   Program Costs                    Cost                Schedule                      Delay
                                 ($ in Millions)                 Growth
                              Original     Current                              Original Current
WAAS                             $892        $3,300*              270%         1998-2001 2003-2013                   12 Years

STARS                              $940         $2,100**          123%         1998-2005 2002-2012                    7 Years

   Source: OIG Analysis of FAA Data.
 * This includes sunk program costs of about $900 million.
** This is FAA’s estimate of the cost to deploy STARS to all 162 operational sites and is subject to additional validation. Currently,
   STARS is limited to 50 sites at $1.46 billion. These costs do not include technical refresh.


Both projects have been delayed for years by requirements changes and technical
difficulties, among other things, and FAA expects to be funding both projects well
into the foreseeable future. Figure 2-3 shows the impact of having to fund these
two programs as well as the En Route Automation Modernization program.
                                                                                                               12

   Figure 2-3. FAA’s Planned Investments in Three Major Acquisitions
                FY 2005 Through FY 2007 ($ in Millions)
                      400.0
                                       $476.4                      $562.6                    $613.6
                      350.0

                      300.0

                      250.0
      $ in Millions




                      200.0
                                                                                                       375.0
                                                                              340.2
                      150.0
                                                262.5
                      100.0
                                                                      122.4              119.4 119.2
                       50.0       100.0 113.9                 100.0

                        0.0
                                      FY 2005                      FY 2006                   FY 2007
                                                  Wide Area Augmentation System
                                                  Standard Terminal Automation Replacement System
                                                  En Route Automation Modernization

                      Source: OIG analysis of FAA data.


The challenges facing FAA with respect to its major acquisition programs are
getting control of costs of existing projects, determining what the Agency’s
priorities are, and improving the overall management of its major acquisitions in a
constrained budget environment. As a first step, FAA needs to develop reliable
cost and schedule baselines (from start to finish) for a number of ongoing billion-
dollar projects. These include STARS, the Airport Surveillance Radar-11, and the
FAA Telecommunications Infrastructure effort. For each of these projects, it is
not clear what the total cost will be or how long it will take to complete the
project. A specific concern arising from delays with STARS is how to address
urgent needs caused by aging equipment at critical sites, like Chicago.

Until the new baselines are established, FAA will not be in position to manage its
overall modernization portfolio or set expectations for what can be accomplished
within existing and projected funding levels. Also, our work on a wide range of
projects shows that FAA can improve its overall management of major
acquisitions by relying more on fixed-price contracts to control costs instead of
cost-plus contracts that place the risk with the Government.
                                                                             13

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

• Key Issues for the Federal Aviation Administration's FY 2005 Budget
• Status Report on the Advanced Technologies and Oceanic Procedures
• FAA’s FY 2005 Budget: Opportunities to Control Costs and Improve
  Effectiveness of Programs
• Observations on Bringing Fiscal Discipline and Accountability to FAA’s Air
  Traffic Control Modernization Program
• FAA Needs to Reevaluate STARS Costs and Consider Other Alternatives
• Status Report on FAA's Operational Evolution Plan
• Addressing Controller Attrition: Opportunities and Challenges Facing the
  Federal Aviation Administration
• Opportunities to Improve FAA's Process for Placing and Training Air Traffic
  Controllers in Light of Pending Retirements
• FAA’s Management of and Control Over Memorandums of Understanding
• Safety, Cost, and Operational Metrics of the Federal Aviation Administration's
  Visual Flight Rule Towers
                                                                                                                                   14



      3 Increasing Aviation Capacity and Mitigating
                Delays
    After a few years of relative reprieve from aviation congestion, traffic and delays
    are once again returning; in some markets they are approaching levels experienced
    in 2000, generally considered the worst period ever for aviation gridlock. We see
    the Department of Transportation’s challenge as determining how and where
    traffic is likely to grow over the next decade, and planning for adequate
    investment in facilities, technology, and operational improvements to address both
    the long- and short-range needs. The Department’s long-term challenge will be
    keeping planned technological and infrastructure projects on schedule while
    effectively implementing short-term initiatives to relieve congestion and delays in
    the interim.

    Traffic is returning with the Federal Aviation Administration’s (FAA) Air Route
    Traffic Control Centers reporting 2004 year-to-date operations that nearly equal or
    exceed 2000 levels. With this growth in operations has come an increase in the
    number of aviation delays, with the incidence, rate, and length of delays
    approaching 2000 levels. As the following figures illustrate, the number of arrival
    delays in the first 9 months of 2004 was within 11 percent of number of arrival
    delays in the same period in 2000, the rate of delay (22 percent) is approaching the
    25 percent experienced in 2000, and the length of delays in 2004 (51.41 minutes)
    actually exceeds the 2000 average delays (51.17) for the first 9 months of that
    year.


              Figure 3-1. Total Number of Arrival Delays,                                  Figure 3-2. Average Minutes of Delay,
            2000 Through 2004 - First 9 Months of Each Year                           2000 Through 2004 - First 9 Months of Each Year

                 1,511,444                                                      60        51.17                                   51.41
1,600,000
                                                                                                     49.93               47.89
                                                                    1,340,001                                  46.22
1,400,000                     1,287,777
                                                                                50

1,200,000                                 1,032,490    1,011,929
                                                                                40
1,000,000

 800,000                                                                        30

 600,000
                                                                                20
 400,000

                                                                                10
 200,000

     0
     -                                                                            0
             2000            2001         2002        2003         2004                  2000      2001      2002      2003      2004
Source: FAA data                                                                Source: FAA data
                                                                                               15

Delays were particularly disruptive earlier this year at several key airports. At
Chicago O’Hare, the number of delays in the first 5 months of 2004 was
40 percent greater than the same period in 2000; and 2004 delays also averaged 10
minutes longer (66 minutes versus 56 minutes). For the first 5 months of 2004,
airports in Salt Lake City and Ft. Lauderdale also experienced delays exceeding
year 2000 levels by 31 percent and 23 percent, respectively. Table 3-1 identifies
the number, percentage, and length of delays for the Nation’s top delayed airports
in the first 9 months of both 2004 and 2000.

                    Table 3-1. Ranking Report for Delayed Flights
                         9 Months 2004                  9 Months 2000                '04 vs. '00
                    Rank Arrival   %              Rank Arrival      %
      Airport       2004 Delays Delayed Minutes   2000 Delays    Delayed Minutes   Delays Minutes
Chicago-O'Hare        1  105,297   28.91  65.48     1  100,962      31.81  58.36        4%    7.12
Atlanta               2   91,060   25.61  52.83     2   84,075      26.11  51.93        8%     0.9
Dallas-Ft. Worth      3   51,921   17.45  55.45     4   57,921      19.38  52.44      -10%    3.01
Newark                4   44,002    28.1  61.25    10   44,812      29.55  60.94       -2%    0.31
Philadelphia          5   42,335   25.94  55.55     9   46,485      30.04  54.02       -9%    1.53
Los Angeles           6   41,435   18.01   47.3     3   69,210      28.28  47.61      -40%   -0.31
Denver                7   36,608   17.67  48.14     5   53,845       29.2  49.76      -32%   -1.62
Washington-Dulles     8   36,396   24.95  56.29    12   38,954      25.96  52.28       -7%    4.01
NY-LaGuardia          9   35,717   24.48  58.55     8   47,020       35.5  60.29      -24%   -1.74
Cincinnati           10   35,069   18.55  50.18    13   35,684      22.07  45.35       -2%    4.83
Minneapolis          11   34,902   18.36  47.11    17   33,151      18.78  50.33        5%   -3.22
Houston              12   34,817   18.94  49.53    21   29,923      18.92  50.36       16%   -0.83
Phoenix              13   34,688   19.44  47.87    11   43,981      25.11  47.78      -21%    0.09
Las Vegas            14   33,415   22.89  48.41    15   35,504      26.81  48.11       -6%     0.3
Detroit              15   30,862   16.47  47.84    18   32,967      18.83  52.58       -6%   -4.74
Source: FAA


Addressing Capacity Needs in Both the Long- and Short-Term
It is generally agreed that where new construction is an option, building new
runways provides the largest increase in system capacity. The Department’s
challenge will be to keep these projects on track while identifying short-term
initiatives to manage delays such as airspace redesign, technological
improvements, procedural changes, and potential administrative or market-based
solutions.

However, in some markets, physical improvements, airspace redesign, or
technology cannot or will not provide sufficient capacity to accommodate
expected demand. One potential option in such markets is an administrative
approach—where the Government makes decisions for the market. Another
alternative to new construction are market-based solutions, such as peak-hour
pricing or slot auctions, which use market forces to effect change. In addition to
pursuing the traditional infrastructure, technology, and procedural solutions to
congestion, the timing is right for the Department to explore potential market-
based initiatives designed to more efficiently allocate existing capacity.
                                                                                 16

New Runways and Airspace Redesign Initiatives. FAA’s modernization program
will provide incremental enhancements; however, over the long term, adding new
runways provides the largest increase in system capacity. In addition, improving
the efficiency of existing airport capacity by redesigning airspace is also critical
for taking full advantage of new runways and enhancing the flow of air travel
around existing runways and airports. The Department’s challenge will be to keep
these projects on track.
FAA tracks new runways as part of its Operational Evolution Plan (OEP). The
OEP was developed in direct response to delays and cancellations that reached
intolerable levels in the summer of 2000. FAA estimates that new runways will
account for the single largest factor in the projected increase in capacity promised
by the OEP. Since the summer of 2000, seven new runways have been built
(Phoenix, Detroit, Orlando, Denver, Miami, Houston, and Cleveland). Currently,
seven more new runways are being tracked as part of the OEP and are expected to
be completed within the next 4 years.

In addition to the seven new runways in FAA’s OEP, Chicago O’Hare is currently
planning to add one new runway, extend two existing runways, and relocate three
others as part of the O’Hare Modernization Program (OMP). This program is
aimed at increasing capacity and reducing significant delay problems. While
initial relief is anticipated in 2007 following the opening of the new runway, it is
estimated that the OMP will take until 2013 to complete. The environmental
process alone is not expected to be completed until September 2005—over 3 years
after the process began. This completion date could be further delayed because of
anticipated legal challenges from groups opposing the OMP.

FAA’s airspace redesign efforts are also critical to increase capacity and reduce
delays. Currently, FAA is pursuing over 40 individual projects, including large-
scale efforts to redesign airspace in the New York/New Jersey/Philadelphia area;
the Los Angles Basin; and in the Midwest around the Chicago O’Hare, Detroit,
and Minneapolis Airports. Our ongoing work shows that FAA’s airspace redesign
projects are often delayed by 3 years or more because of changes in a project’s
scope, environmental issues, and problems in developing new procedures.
Moreover, there is inadequate coordination between airspace redesign teams and
FAA organizations that manage resources (new equipment or radio frequencies)
often needed to implement airspace changes. FAA needs to get its airspace
redesign efforts on track and determine what can reasonably be expected of the
projects and when they can be completed.

Interim Steps and Alternatives to New Construction. Because new runways are
not immediate solutions (in some cases, such as space-constrained New York-
LaGuardia, they are not viable solutions), alternatives to new construction must be
considered for both the short- and long-term. Since the summer of 2000, FAA and
                                                                                  17

the airlines have made a number of technological, operational, and procedural
improvements that increase the efficiency of existing capacity and will help to
enhance the flow of air travel in the near term.

These improvements include collaborative decision-making systems that link
FAA’s command center and airline operating centers to improve communications
during delayed conditions. FAA has also instituted new procedures, including
“delay triggers,” which institute holds on traffic from feeder airports when delay
conditions at the receiver airport reach 90 minutes or more. In addition, FAA’s air
traffic control modernization initiatives, such as new automated controller tools,
are expected to provide incremental capacity improvements.

The Department has also demonstrated a willingness to intervene administratively
when delays reach a critical point. Three times in the past year, the Department
has negotiated voluntarily schedule reductions at Chicago-O’Hare by the two
dominant carriers. The first two negotiations, while achieving net reductions in
delays, did not fully realize the anticipated delay-reduction goals, and it is too
soon to tell whether the third effort will be successful. Intervention of this nature
by the Department entails a certain risk—the Department assumed a role (schedule
planning) that has been delegated exclusively to the carriers since deregulation.
Such actions, while potentially effective in the short term by preventing delays in
one choke-point from cascading throughout the system, have the potential to
negatively impact competition by favoring one class of carriers over another or
impacting service to small communities.

The Department’s challenge in the short term will be to remain flexible and pro-
active in implementing solutions that will adequately mitigate congestion until
long-term projects can be fully completed. The Department will also need to
identify those markets that realistically are not conducive to new construction as a
short- or long-term solution and evaluate alternatives. For example, Federal and
state approvals of the Boston-Logan Airside Improvements Planning Project
stipulated that Massport commit to the development of a demand management
program. Massport has proposed a revenue-neutral, peak-hour pricing plan that is
currently undergoing public comment.

Before an effective market-based strategy can be successfully implemented, the
Department—along with industry stakeholders—will need to address a range of
complex issues. These include:

 • Who has the authority to set the fees? Under what circumstances will they be
   set? Will there be controls on the amounts?
 • Whose approval is needed for an airport authority to develop and institute a
   market-based strategy?
                                                                            18

 • Who gets the revenue from any fee-adjusted pricing scheme?
 • What can the funds be used for?
 • What would the implications be for small- and medium-sized communities?

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

   • Airline Industry Metrics: Trends in Demand and Capacity, Aviation
     System Performance, Airline Finances, and Service to Small Airports; Fifth
     Edition (January 2004)
   • Airline Industry Metrics: Trends in Demand and Capacity, Aviation
     System Performance, Airline Finances, and Service to Small Airports; Sixth
     Edition (August 2004)
   • Short- and Long-Term Efforts to Mitigate Flight Delays and Congestion
     (May 2004)
   • Short- and Long-Term Efforts to Mitigate Flight Delays and Congestion
     (June 2004)
   • Status Report on FAA’s Operational Evolution Plan
                                                                                   19



 4 Ensuring     Safety                 in     a     Changing            Aviation
      Environment
In terms of safety, the Federal Aviation Administration (FAA) and U.S. carriers
have maintained a remarkable safety record. There has not been a fatal accident of
a large passenger air carrier in almost 3 years. However, we have experienced an
unfortunate series of commuter accidents. Larger air carriers are operating newer,
more sophisticated aircraft and have established internal systems, such as Flight
Operational Quality Assurance, to collect and analyze data to improve the safety
of flight operations. These factors have contributed to large air carriers’
remarkable safety record. However, FAA needs to remain vigilant in adjusting its
oversight to trends in the industry. The significant trends that bear watching
include: the deterioration of air carriers’ financial condition, the growth of low-
cost and regional air carriers, and the increased use of outside repair facilities for
aircraft maintenance. In addition, FAA must continue its efforts to reduce runway
incursions and operational errors.

Adjusting Safety Oversight to Current Trends in the Industry
FAA has a significant challenge in ensuring its safety oversight keeps pace with
current trends in the aviation industry. Network air carriers have faced record-
breaking monetary losses—at least $21.8 billion in the past 3 years. Two network
air carriers are in bankruptcy and one more is on the verge of bankruptcy. In
addition, one low-cost air carrier has recently declared bankruptcy. However,
most low-cost and regional air carriers are continuing to grow at a phenomenal
rate. From 2000 to 2003, these carriers’ passenger market share, based on
passenger enplanements, grew from 29 to 40 percent. FAA forecasts that low-cost
and regional air carriers could account for more than 50 percent of the passenger
market share in 2015. To remain competitive, network carriers are making
unprecedented changes to their operations, such as:

•   Increasing the use of outsourced maintenance providers,
•   Restructuring routes and aircraft fleets,
•   Using aircraft for more hours in the day,
•   Utilizing pilots and flight crews for longer hours, and
•   Reducing staff significantly.


Providing oversight of air carrier outsourcing, or use of external repair facilities,
has been particularly challenging for FAA. While FAA has recognized that
substantial changes to its oversight of repair stations are needed, proposed changes
are still under development. FAA must continue to make improvements in this
                                                                                                          20
                                  Figure 4-1. Percentage Increase in Maintenance Outsourcing for
                                               Major Air Carriers from 1996 to 2003
area because major air carriers
                                                                                            Outsourcing Cost
now outsource 51 percent of                  $7                                             Total Cost

their maintenance expense,                   $6

compared to just 37 percent in               $5




                                  Billions
1996.                                        $4
                                                                                47%   47%
                                                                          44%               51%
                                             $3
                                                              41%   45%
                                                  37%   38%
In addition, the January 2003         $2

Air      Midwest        accident      $1

highlighted the fact that air         $0
                                          1996  1997 1998 1999   2000 2001 2002 2003
carriers are also using Source: U.S. DOT Form 41 Reports     Years
independent            mechanic
services and non-certified repair facilities to perform maintenance work that is not
subject to FAA’s direct oversight. FAA must continue its efforts to develop an
improved oversight program for outsourced maintenance. In addition, FAA must
continue to improve its air carrier oversight systems to respond effectively to the
challenges being presented by an ailing network and growing low-cost air carrier
industry. FAA has made noteworthy progress in the past 6 years in moving its
oversight systems toward a more data-driven, risk-based approach, but we found
the systems were not mature and refined enough to allow inspectors to effectively
adjust their surveillance to industry changes.

Reducing Operational Errors and Runway Incursions as Traffic
Rebounds
As air traffic operations increase, there are two key areas to watch—operational
errors (when air traffic controllers allow planes to come too close together in the
air) and runway incursions (potential collisions on the ground). Reducing
operational errors and runway incursions has been a key performance goal for
FAA in the past year.
                                                                                                 21

As shown in Figure 4-2, FAA reduced
the number of operational errors from       Figure 4-2. Operational Errors, FY 1998 to FY 2004

1,185 during fiscal year (FY) 2003 to
1,148 during FY 2004.             More             FY 1998                    885

importantly, FAA significantly reduced             FY 1999                     941

the most serious incidents.       From             FY 2000                           1,145

FY 2003 to FY 2004, operational                    FY 2001                            1,194




                                            Year
errors rated as high severity decreased            FY 2002                           1,061

27 percent (from 55 to 40).                        FY 2003                            1,185

                                                   *FY 2004                          1,148

In addition, for the fourth consecutive                0  300  600 900 1,200 1,500
                                                           Number
year, FAA was successful in reducing       * P reliminary
                                                                        Source: FAA
the most serious runway incursions
(those rated in FAA’s two highest risk categories). These incidents decreased
from 32 in FY 2003 to 28 in FY 2004.

Despite FAA’s progress in reducing serious incidents, they still occur too often.
In FY 2004, either one high severity operational error or one serious runway
incursion occurred every 5 days.

We also have concerns regarding FAA’s process for reporting operational errors.
FAA has an automated system that identifies when operational errors occur at only
20 of its 524 air traffic control facilities. FAA depends on an unreliable system of
self-reporting operational errors at tower and terminal radar approach control
(TRACON) facilities.

We recently reported that operational errors at these facilities have not been
accurately reported. We determined that in FY 2003, 22 percent of the operational
errors occurring at TRACON and towers were identified as a result of reports from
pilots, neighboring air traffic control facilities, or other outside sources. The
statistics indicate that FAA cannot rely on a system that is based on facility
personnel self-reporting operational errors. FAA needs a procedure that will
provide greater assurance that substantially all operational errors are being
reported. We recommended that FAA require tower and TRACON facilities to
periodically review voice and radar tapes to assess whether errors are being fully
reported. FAA agreed with our recommendations and plans to establish a
workgroup within the Air Traffic Organization that will develop an action plan to
ensure accurate and full reporting of operational errors. This coming year, it is
imperative for FAA to correct this vulnerability in reporting and to make certain
operational errors are accurately reported for each facility.
                                                                          22

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

   • Controls Over the Reporting of Operational Errors
   • Review of Air Carriers’ Use of Aircraft Repair Stations
   • Operational Errors and Runway Incursions: Progress Made, but the
     Number of Incidents is Still High and Presents Serious Safety Risks
   • Air Transportation Oversight System
                                                                                                                                                   23



 5 Ensuring That Safety Programs Lead to More Lives
         Saved
Highway, commercial vehicle, and rail safety initiatives all have received
significant levels of funding under the Transportation Equity Act for the
21st Century (TEA-21), and these trends are expected to continue under pending
reauthorization legislation. Sustained levels of funding have been matched by
reductions in the overall highway and rail fatality rates. The absolute numbers of
highway and rail-related fatalities have also declined; although in some categories,
such as motorcycle riders, fatalities have actually increased since TEA-21 started.
Overall, more than 40,000 people still die each year on the Nation’s highways and
at rail crossings, and the Department of Transportation has set ambitious targets
for reducing fatality rates in the future.

The growth in overall funding, past fatality trends, and future targets are shown
below.

              Figure 5-1. Funding and Fatality Trends                                                Figure 5-2. Actual and Targeted Highway
 Funding                  Highway Safety                                             Highw ay                      Fatality Rate
 (Millions)                                                          Fatalities    Fataility Rate    (Per 100 Million Vehicle Miles Traveled)
               Funding Source: TEA-21 Authorized Highway
               Safety, Motor Carrier Safety and Safety Incentives                       2.00
  $800                                                               50,000

                                                                     40,000            1.50
  $600

                                                                     30,000
                                                                                       1.00
  $400
                                                                     20,000
                                                                                       0.50
  $200
                                                                     10,000
                                                                                                            Actual Fatality Rate                Target Rates
                     Funding             Traffic Fatalities                             0-
    $0                                                               0
                                                                                                2001 2002       2003 2004         2005 2006      2007 2008
          1998       1999     2000      2001      2002      2003
                                                                                                                               Year
                                 Year
                            Source: NHTSA                                                                             Source: NHTSA

  Funding Figure 5-3. Funding and Fatality Trends                                                      Figure 5-4. Actual and Target Rail
 (Millions)             Rail Safety                                   Fatalities         Rail                     Fatality Rate
                Funding Source: FRA Budget                                           Fatality Rate
 $200                                                                  1,050                            (Per Million Train Miles Traveled)
                                                                                      1.5
                                                                         1,000
 $150
                                                                         950
                                                                                        1
 $100                                                                    900

                                                                         850          0.5
  $50
                                                                         800
                            Funding                Fatalities                                           Actual Fatality Rate           Target Fatality Rate
   $0                                                                    750            0
              1998   1999       2000      2001      2002      2003                            2001       2002      2003         2004     2005       2006
                                  Year                                                                                 Year
                               Source: FRA                                                                         Source: FRA
                                                                                                          24


One area that has increased significantly is motorcycle fatalities, which have
increased by 59 percent, or 1,367 fatalities, since 1998. The fatality rate for
motorcycle riders has also increased. In the case of both highway and rail fatality
rates, the Department met its targets in 2003 after not meeting the targets in 2001
and 2002.

                                     Figure 5-5. Motorcycle Fatalities and
              Motorcycle                   Motorcycle Fatality Rate
                                     (Per 100 Million Vehicle Miles Traveled)             Fatality Rate
               Fatalities
                4,000                                                                         50.00

                                                                                              40.00
                3,000

                                                                                              30.00
                2,000
                                                                                              20.00

                1,000
                                                                                              10.00
                                         Fatalities             Fatality Rate
                     0                                                                        0
                            1998      1999      2000        2001      2002         2003
                                                    Year
                                               Source: NHTSA



The Department has had limited success in its efforts to reduce alcohol-impaired
driving. Since 1998, total alcohol-related fatalities increased slightly to 17,013
fatalities in 2003, while the alcohol fatality rate decreased by 6 percent to
.59 fatalities per 100 million vehicle miles traveled.

                                   Figure 5-6. Alcohol-Related Fatalities
                                        And Alcohol Fatality Rate
                 Fatalities                                                            Fatality Rate
                 18,000                                                                   0.70


                 17,500                                                                    0.65


                 17,000                                                                    0.60


                 16,500                                                                    0.55
                                                      Alcohol-Related Fatalities
                                                      Alcohol Fatality Rate
                 16,000                                                                    0.50
                              1998      1999     2000    2001        2002       2003
                                                     Year
                                                Source: NHTSA
                                                                                                   25

The Department has been successful in reducing the large truck fatality rate but
further reductions are needed to meet its goals. In fiscal year (FY) 2000, the large
truck fatality rate declined from 2.7 fatalities per 100 million truck miles traveled
in the previous year to 2.6, a level above the target rate of 2.57. The target rate of
2.45 was achieved in FY 2001, and in FY 2002, the target rate of 2.32 was
exceeded by an actual rate of 2.30. In 2003, the actual rate is estimated to have
declined further to 2.25, above the target of 2.19. The number of fatalities
involving large truck crashes slightly increased in 2003 from 4,939 to 4,986. To
reach its 2008 performance goals for truck safety, the Department must reduce the
rate of large truck fatalities even further to 1.65.
.
                                                                            La rge T ruc k
                                                                           F a t a lit y R a t e
        La rge T ruc k
                                Figure 5-7. Large Truck Fatalities and    P e r 10 0 M illio n
         F a t a lit ie s         Actual and Targeted Fatality Rates       V e hic le M ile s
                                                                               T ra v e le d

        7,000                                                                            3.5

        6,000                                                                            3.0

        5,000                                                                            2.5

        4,000                                     *                                      2.0

        3,000                                                                            1.5

        2,000                     Large Truck Fatalities                                 1.0
                                  Actual Rate of Large Truck Fatalities
        1,000                                                                            0.5
                                  Target Rate of Large Truck Fatalities
              0                                                                          0.0
                    1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008
                                                Year
                                           Source: FMCSA                 * Estimate


Meeting the ambitious goals for reducing highway fatality rates set by the
Department will be difficult. The overall highway fatality rate must drop from
1.48 per 100 million vehicle miles traveled in 2003 to 1.38 in 2006 and to 1.0 by
2008. Assuming that vehicle miles traveled remain constant, the 1.0 rate goal
would save 30,929 lives between 2004 and 2008. However, given that vehicle
miles traveled have increased historically by 10 percent between 1998 and 2003,
reducing the absolute number of fatalities may be difficult even if progress is
made on reducing highway fatality rates.

The rail-related fatality rates currently targeted for 2004 and 2005 are higher than
the actual fatality rates for 2003. After we called this to their attention, Federal
Railroad Administration officials told us they will adjust this performance measure
in early 2005.
                                                                                 26

Cutting Across Traditional Boundaries and Effectively Targeting
Federal Grants to Areas Having the Greatest Potential for
Saving Lives
Transportation experts have pointed out the difficulties in making quantum leaps
in improving safety. A complex variety of factors contribute to crashes including
driver behavior, vehicle defects, and road and bridge conditions. Significant
safety improvements may also require the Department to cut across traditional
organizational boundaries. Improvements will also depend on targeting Federal
safety grants to areas having the greatest potential for saving lives and spending
funds in a timely manner. Ensuring that program expenditures and levels of effort
bring about corresponding reductions in crashes and fatalities will require
leadership by the various modal administrations and the consideration of actions
that may be controversial.


Overcoming Obstacles to Increasing Seat Belt Usage. Seat belt usage increased
from 70 percent in 1998 to an estimated 80 percent in 2004, and states with
primary seat belt laws—which allow a motorist to be ticketed solely for not
wearing a seat belt—increased from 14 states in 1998 to 21 states in 2004.
Success in seat belt usage has been achieved through the National Highway
Traffic Safety Administration’s (NHTSA) programs, such as “Click It or Ticket,”
where law enforcement agencies conduct zero-tolerance enforcement backed by
advertising campaigns. However, challenges remain with increasing seat belt
usage for part-time and chronic non-users and with overcoming states resistance to
stronger seat belt laws. Truck drivers are another group with low seat belt usage
that may be in need of additional focus.

Addressing SUV Rollover Issues. Additional attention is needed in the area of
Sport Utility Vehicles (SUV). In 2003, 59 percent of SUV occupant fatalities
involved a rollover, the largest percentage for any vehicle type. There was also a
7-percent increase in the number of SUV occupants killed in single SUV rollovers.
NHTSA should continue efforts to improve safety standards and establish new
requirements that will mitigate the impact of rollovers.

Pursuing Laws to Discourage Alcohol-Impaired Driving. Alcohol-related fatality
rates decreased from .63 per 100 million vehicle miles traveled in 1998 to .59 in
2003 and all states have adopted a .08 Blood Alcohol Concentration law. Still,
alcohol-related fatalities remained near 17,000 deaths per year. NHTSA should
work with states to effectively use the funds available for alcohol-related programs
and continue to encourage the adoption of open container and repeat offender
laws.
                                                                                  27

Spotting Vehicle Defects. Without advanced analytical capabilities for its recently
completed safety defect database, NHTSA will be challenged to ensure that the
“early warning” information being reported is thoroughly and consistently
analyzed to spot dangerous safety trends, such as the failures in Firestone tires.

Curbing CDL Fraud By Strengthening Controls. As discussed in more detail in
Section 7 of this report, “Holding the Line on Programs Conducive to Fraud,” over
the past 5 years we have investigated and prosecuted commercial drivers’ licenses
(CDL) fraud schemes in 21 states. These investigations found over 8,000 CDLs
that were issued to drivers who obtained their CDLS through corrupt state or state-
approved testing processes. Curbing CDL fraud helps ensure that only drivers
with the requisite skills obtain CDLs. The Federal Motor Carrier Safety
Administration (FMCSA) has increased the depth of state CDL reviews, and we
are working to support FMCSA’s efforts to deter and prevent CDL fraud.
However, the challenge will be to improve controls at the state level over the
issuance of CDLs.

Improving Safety Data. Completeness and accuracy of data on crashes and other
safety events are critical to identifying high-risk motor carriers for review. We
previously reported that states failed to report to FMCSA an estimated one-third of
large trucks involved in crashes annually. In response, FMCSA has posted reports
on the Internet showing states that are not adequately reporting crash data,
removed certain data from its web site until data quality is improved, and is
working with NHTSA to improve state reporting of crashes. The challenge will be
to obtain consistent and complete reporting across the multitude of state
jurisdictions.

Targeting Approaches to Reduce Highway-Rail Grade Crossing Fatalities and
Accidents. In June 2004, we reported that for the Department to achieve the
magnitude of reductions in grade crossing fatalities and accidents accomplished
over the past 10 years, it will need a careful analysis of accident trends and a plan
that strategically targets remaining problem areas. This will require addressing
unsafe motorist behavior, targeting actions at crossings that are equipped with
protective devices, and closing additional crossings. Despite the safety benefits,
closures are often difficult to achieve because of local community opposition
linked to concerns about emergency response time, traffic delays, neighborhood
impacts, and public inconvenience.


For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

   • Review of NHTSA’s Progress in Implementing Strategies to Increase the
     Use of Seat Belts
                                                                          28

• Follow-up Audit on NHTSA’s Office of Defects Investigation
• Progress and Challenges in Implementing the TREAD Act
• NHTSA Office of Defects Investigation
• Improving the Testing and Licensing of Commercial Drivers
• Disqualifying Commercial Drivers
• Improvements Needed in the Motor Carrier Safety Status Measurement
  System
• Investment Review Board Deliberations on the Motor Carrier Management
  Information System
• Report on the Audit of the Highway-Rail Grade Crossing Safety Program
                                                                                     29



 6 Strengthening Financial Management to Protect
      Federal Funds
The Department of Transportation’s (DOT) efforts to correct longstanding
financial management deficiencies are evident in the progress it has made over the
last several years. This year, DOT received its fourth consecutive clean financial
statement opinion and met the Office of Management and Budget’s (OMB)
accelerated date to submit audited financial statements by November 15, 2004.
All departmental Operating Administrations now use the new Delphi accounting
system, and DOT is the only major Federal agency that uses a single modern
accounting system. The Federal Aviation Administration (FAA) also improved its
oversight of cost-reimbursable contracts to the extent that it is no longer a material
weakness. Further, while the Federal Highway Administration (FHWA) still has a
long way to go, it made progress in its efforts to correct weaknesses in its financial
management practices. These steps improved DOT’s ability to protect the billions
of dollars in resources entrusted to it each year. The significant remaining
challenges are listed below.

Freeing Up Hundreds of Millions of Dollars in Idle Funds to Be
Used More Productively on Active Projects
                                                                In fiscal year (FY)
              Inactive
     Figure 6-1.        Obligations
                 Department-Wide       Audit
                                 Inactive      Results
                                          Obligations           1999, we identified
                                                      Audit Results

 1999 Total
                                                                $672 million in inactive
                                    $672 Million
                                                                obligations, including
 2001 Total          $293 Million                               $284 million in FHWA
                                                                funds, that were no
 2004 Total            $343 Million
                                                 $1,308 Million
                                                                longer needed or valid.
      Total                                                     In FY 2001, we
                                                                identified $293 million,
                                                                including $238 million
in unneeded FHWA funds. Despite repeated audits and new DOT guidance, in
FY 2004, we identified $343 million in inactive obligations; this included
$284 million in FHWA funds. By freeing up these idle funds, they may become
available to finance active projects. It is especially important to identify and use
idle funds in this period of tight budget constraints.

In FY 2004, FHWA committed to implement best practices for identifying idle
funds. When implemented, these actions should ensure that highway resources do
not sit idle when they could be used to enhance transportation facilities.
                                                                                    30


Exercising Greater Stewardship Over the More Than $35 Billion
Awarded Annually on Highway and Transit Projects
FHWA must establish stronger financial and cost controls to better ensure that
grant funds are protected from fraud, waste, and abuse. This is especially
important in a time of large deficits. (See Emerging Issue section, “Ensuring
Transportation Funds Are Adequate to Meet Growing Needs.”) FHWA, however,
currently provides little financial oversight of the billions of dollars it provides to
states and municipalities each year. Over the last year, there has been a major
shift in direction, and the Department now recognizes the need to improve its
oversight of these resources. As a result, plans are underway to implement much
improved processes to provide the needed oversight. Follow through to ensure the
reforms are implemented promptly and effectively will be the key to sustained
improvement in this area. The Federal Transit Administration (FTA) has systems
in place to monitor resources provided to transit authorities and municipalities, but
it too could do a better job of protecting Federal funds. We also continue to
handle significant numbers of fraud cases. Over the last 5 years, our
investigations have yielded 128 convictions and more than $90 million in
recoveries from highway and transit system fraud.

We previously reported that FHWA frequently did not perform financial
management reviews of grantees. This year, we identified additional issues that
raise further questions about the adequacy of FHWA’s oversight. FHWA does not
require its Division Offices to assess grantee financial management risks, review
grantee payment processes, or spot check a sample of payments for
reasonableness. To illustrate, FHWA did not provide this financial management
oversight for 41 of 45 grant projects—with obligations totaling
$113 million—that we looked at this year. FHWA also reported that its payment
system was modified to automatically pay grantees without any review by an
FHWA official. Fourteen Division Offices made payments of about $4 billion this
year using this method. FHWA management discontinued the practice as soon as
they discovered it existed.

DOT is undertaking two efforts to improve FHWA grant oversight. First, the
FHWA Administrator plans to establish a new policy in FY 2005 that will require
Division Offices to perform much more stringent oversight, including reviewing
state payment processes and testing a sample of actual payments. This represents
a good first step—a commitment and a plan. After it is approved, it will still take
time to implement and, as with any major change, FHWA will face a significant
challenge implementing the policy in its 52 Division Offices. When fully
implemented, the new policy will go a long way to reduce the risk of losses to
fraud, waste, or abuse. Second, we are working with the Office of the Secretary
and OMB to establish a pilot project to estimate the extent of improper payments
in the highway program.
                                                                                  31


We have testified that FTA provides more oversight of how grantees use Federal
resources than FHWA, but it can still do a better job. For example, FTA uses
project management oversight and financial management oversight contractors to
provide early warnings of cost, schedule, and quality problems. However, the
quality of this oversight can be improved, particularly in the areas of spot checking
grantee cost and schedule estimates. To illustrate, in the case of Puerto Rico’s
Tren Urbano, costs almost doubled from $1.25 billion to $2.25 billion, and the
project encountered a 3-year delay in opening the system to passengers. Although
FTA required Tren Urbano to prepare a plan to address the issues, the plan was not
adequate because it did not identify actions or establish time frames to address all
safety-critical issues.

Consolidating or Replacing Fragmented Financial Systems Used
to Process Billions of Dollars Annually
DOT has significantly improved financial management by deploying a new
Department-wide accounting system, called Delphi. DOT must complete its
efforts to improve system security and correct unreliable data that were transferred
to the new system. However, DOT also needs to improve other financial
management systems that provide critical information to the departmental
accounting system. Those systems are used to manage billions of dollars of
grants, make billions of dollars in payments, and maintain inventories of DOT-
owned property throughout the country. However, the systems are fragmented,
with several Operating Administrations maintaining systems to perform similar
functions. They are also obsolete, since they do not meet important Federal
financial management system requirements. For example, DOT received almost
$9 million to operate seven different grant management and payment systems in
FY 2004. DOT will be challenged to consolidate these systems and to bring them
into compliance with requirements. DOT has begun analyzing opportunities to
consolidate and modernize these systems, but those efforts are in the early stages.

Implementing Cost Accounting Systems, Especially at FAA, to
Help Executives to Improve Their Operations
DOT is responsible for ensuring that its annual budget of about $58 billion is used
efficiently and effectively. Cost accounting is a basic tool that the private sector
uses to improve operational efficiency and control costs. The FAA Administrator
has pledged to have a fully operational cost accounting system in place by
September 30, 2005 for its $14 billion budget. A reliable system to track its
$6.2 billion in annual labor budget is also critical to an effective cost accounting
system. The Administrator has committed to implement a labor distribution
system by June 2005. However, FAA now faces several challenges to complete
                                                                                   32

its system. FAA must revamp the system to account for recent significant
organizational changes; deploy the system to two other lines of business; begin
assigning actual labor costs and other unassigned service costs to specific facilities
and activities; and implement financial and performance measures for activities,
which are critical to achieve performance efficiencies and cost savings.

DOT’s 11 other Operating Administrations have made varying progress
implementing cost accounting systems. Six smaller Operating Administrations
have partially implemented cost accounting systems for all or significant portions
of their operations and two other Operating Administrations have implemented
systems for all or significant portions of their operations, but must integrate their
systems with Delphi. However, the three remaining Operating Administrations,
including FHWA and FTA (which together receive more than $35 billion for
highway and transit grants annually), are currently designing their systems.


For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

   • Inactive Obligations, Department of Transportation
   • Inactive     Obligations,          Federal       Highway         Administration
     (September 24, 2001)
   • Inactive Obligations, Federal Highway Administration ( March 31, 2004)
   • Inactive Obligations, Maritime Administration
   • Consolidated Financial Statements For Fiscal Years 2001 and 2000,
     Department of Transportation
   • Consolidated Financial Statements For Fiscal Years 2003 and 2002,
     Department of Transportation
   • Implementing a New Financial Management System, Department of
     Transportation
   • Computer Security of Delphi Financial Management System, Department
     of Transportation
                                                                                 33



 7 Holding the Line on Programs Conducive to Fraud
For the Department of Transportation (DOT), fraud has the serious potential for
diverting critical funds from our infrastructure programs, subverting the efforts of
our safety regulators, and undermining the very integrity of important public
policy. We are identifying fraud prevention and detection as a management
challenge this year not because the Department is more susceptible to fraud than
other Federal departments, but because over the past several years, our
investigative results point to three areas where fraud has a particularly insidious
effect on the Department’s mission: (1) Federal Highway Administration
(FHWA) and Federal Transit Administration (FTA) programs involving highway
and transit infrastructure, (2) Federal Motor Carrier Safety Administration
(FMSCA) programs related to commercial drivers’ licenses, and (3) DOT’s
Disadvantaged Enterprise Program. As noted below, the Department is taking
action in response to our results and recommendations. Its challenge now is to
remain focused on achieving greater progress in these key areas.

FHWA and FTA Programs Involving Highway and Transit
Infrastructure
Approximately $35 billion a year is being expended for upkeep and expansion of
the Nation’s highway and transit infrastructure. Given today’s great demand and
increasingly tight budgets, getting the most for our money by aggressively
ferreting out and deterring fraud is of critical importance. In our investigations,
we have encountered a wide variety of fraud schemes, such as state inspectors
accepting bribes in exchange for approving substandard construction or materials,
bid-rigging by contractors, false claims for work not performed or for inferior
material, and kickbacks between contractors. In one recent case, a Florida
highway construction contractor was debarred by the state for an unprecedented
30 years and fined $1.5 million for submitting millions of dollars in fraudulent
claims on a $30 million resurfacing project. The fraud scheme involved
exploitation of the state’s claim settlement process. Since fiscal year (FY) 1998,
investigations by our office—many conducted with the help of FHWA, FTA, and
other state and Federal law enforcement agencies—have resulted in the conviction
of 178 individuals and companies. We are currently investigating more than 135
such schemes in 37 states.

The Department has taken steps toward improving oversight and stewardship in
this area. In particular, FHWA has implemented initiatives (see Section 1) to: (1)
refocus its oversight activities based on risk assessments of state management
practices and (2) establish a review program of grant payments to help ensure that
Federal funds are properly managed. For its part, FTA has been utilizing project
                                                                                 34

management oversight contractors to perform monitoring and oversight for FTA’s
major capital investments. Also, FHWA, FTA, and the Office of Inspector
General (OIG) have responded to the imperative need for improved information
sharing to prevent, detect, and investigate fraud by co-sponsoring three national
fraud awareness conferences over the past 6 years. In addition, these agencies are
launching an important, web-based initiative aimed at improving information
sharing among Federal, state, and local transportation oversight providers.

An overarching challenge for the Department is to continue to strengthen
oversight, promote early detection of fraud, and aggressively investigate and
prosecute fraud when detected. Because unscrupulous elements in the industry
treat criminal and civil fines and restitution as simply a cost of doing business,
meaningful and timely debarment is an important safeguard to protect the
Government. Earlier this year, the Department established a working group to
examine ways to strengthen internal procedures for suspension and debarment of
contractors indicted and convicted of fraud. While a draft proposal is imminent,
the Department needs to adopt a final policy by the end of this year.

The Department and Congress have also identified Motor Fuel Excise Tax
Evasion (MFETE) enforcement as an issue requiring greater attention. Congress
has recognized that MFETE represents a significant drain on Highway Trust Fund
revenues, estimating losses of up to $1 billion annually. A more vigorous and
collaborative enforcement effort by Federal and state agencies is needed to more
effectively target a wide variety of emerging MFETE schemes. From 1991 to
2003, the OIG participated with FHWA, the Internal Revenue Service, the Federal
Bureau of Investigation, and state agencies in approximately 40 MFETE task force
investigations; this resulted in 187 indictments, 171 convictions, and $33.7 million
in recoveries. As prescribed in the Senate Appropriations Committee Report for
FY 2005, the Department needs to develop a coordinated enforcement strategy
with the Treasury Department and enter into a memorandum of understanding to
further strengthen enforcement efforts.

FMCSA Programs Related to Commercial Drivers’ Licenses
Over the past 5 years, we have participated in the investigation and prosecution of
commercial drivers’ license (CDL) fraud schemes in 21 states. During this period,
over 75 investigations—carried out with the Federal Bureau of Investigation and
other law enforcement agencies, with the strong support of FMCSA—found over
8,000 CDLs issued to drivers who obtained their CDLs through corrupt state or
state-approved testing processes. These most often have involved “third-party
examiners,” i.e., private individuals and companies certified by a state to test CDL
applicants. Instead of properly testing applicants, we have found too many cases
where, in exchange for a bribe, a third-party examiner will pass applicants without
a test or will supply test answers to applicants. In a recent OIG investigation, a
                                                                                35

driver who caused a fatal crash in 2003, which killed a family of five in
Pennsylvania, had been tested by a third-party examiner who was convicted of
fraudulently certifying CDL test results.

In last year’s “Top Management Challenges” report, we recommended that the
Department take greater action to prevent drivers from fraudulently obtaining
CDLs. FMCSA has taken positive steps in this direction. Every year, FMCSA
conducts compliance reviews in approximately 16 states to determine if states are
in compliance with its regulations. Recently, FMCSA restructured its compliance
review process to add a new CDL fraud component, including an assessment of
state CDL fraud countermeasures.

Following up on suspect CDL holders and expanding the use of covert testing of
third-party examiners are areas that need considerably greater attention. Under its
current regulations, FMCSA cannot require states to retest suspect CDL holders.
A recent OIG investigation identified one Georgia third-party examiner who
falsified over 600 CDL skill tests. FMCSA recently awarded a contract for the
review of the entire CDL process to identify areas susceptible to fraud, as well as
ways to improve the CDL process and eliminate potential fraud before it occurs.
This review will include developing a model state program, to include the
critically important covert testing and retesting of suspect CDL holders. While the
contractor will be working with the International Association of Chiefs of Police
and the American Association of Motor Vehicle Administrators, it is important
that FMCSA be closely involved in this review.

Additionally, demonstrating legal presence in the U.S. should be a requirement to
obtain a CDL. In a 2002 audit report—and again in June of this year—we
recommended to the Department that all CDL applicants demonstrate citizenship
or legal presence. The Department plans to address this recommendation through
rulemaking, but to date has not issued a proposed rule. We are concerned about
the delay and urge the Department to issue a regulation as expeditiously as
possible.

DOT’s Disadvantaged Business Enterprise Program
Last year, we identified disadvantaged business enterprise (DBE) fraud as a top
management challenge. Fraud schemes and widespread perceptions of unfairness
have permeated the program and undermined the important public policy goal of
promoting DBEs. OIG is currently investigating 45 DBE fraud schemes in 19
states. Fraud schemes include cases where parties fraudulently obtained DBE
certification status or permitted their companies to be used as false “fronts” or
“pass-throughs,” whereby the DBE performs little or no work. This is primarily
an issue in DOT’s highway, transit, and airport construction programs. In a recent
OIG case in New York, a DBE subcontractor pled guilty to fraud associated with
                                                                                  36

an $8 million FHWA-funded contract. The DBE falsely claimed to have
performed concrete, masonry, and paving work required under the contract, when
in fact, the work was performed by a non-DBE contractor. OIG investigations
have also uncovered problems with state agencies not providing adequate
oversight of their programs.

In the area of airport concession contracts, we have seen a number of cases
involving a perception of “pay to play.” This means that DBEs perceive pressure
to contribute to political campaigns in order to be competitive for lucrative airport
concession contracts. For example, as part of an investigation of the DBE
program at the New Orleans International Airport, we interviewed over 134 DBE
contractor representatives, with more than 60 percent expressing that it was
necessary to make political contributions to successfully compete for these
contracts. Even though we found only one case of an alleged quid pro quo (which
we are investigating), widespread perceptions still exist. Also, there is currently
no personal net worth limit as part of the eligibility requirements to qualify as an
airport concession DBE. This has made the program vulnerable to charges that it
benefits millionaires who have held airport concession contracts for years.
Through a pending rulemaking, the Department has proposed to institute a cap on
the personal net worth of those eligible to receive DBE airport concession
contracts.

Early this year, the Secretary of Transportation established a senior-level working
group to develop and implement strategy for enhanced compliance, enforcement,
and oversight of the DBE program. Thus far, this group has formulated some
recommendations for departmental action and obtained action plans from FHWA,
FAA, and FTA. For instance, FHWA plans to require all Division Offices to
conduct a risk assessment of each state’s compliance with essential DBE program
requirements; it also requires that risk assessments be used to establish priorities
and focus resources on state programs that are most vulnerable to fraud.

A challenge for the Department is to make greater, more tangible progress in
strengthening the oversight of its DBE programs; this includes finalizing the
rulemaking to cap the personal net worth of airport concession DBEs and the
efforts of its working group. The Department needs to prescribe guidelines for a
more hands-on approach to program oversight, such as elements of the
methodology we utilized in our New Orleans investigation (e.g., site visits, DBE
and prime contractor interviews, application and certification file reviews, and
work-site surveillance.) Even if applied on a selective basis, such an approach
would enable the Operating Administrations to better assess the compliance
actions of state and local agency DBE program managers and to directly gauge the
extent of regulatory compliance by participating DBEs and applicants. This type
of model would also facilitate the identification of best practices, program-wide.
                                                                           37


For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

   • Remarks of Inspector General Kenneth Mead at the 2004 National Fraud
     Awareness Conference
   • Controlling Costs and Improving the Effectiveness of Federal Highway
     Administration and Federal Transit Administration Programs
   • Opportunities to Control Costs and Improve Effectiveness of Department of
     Transportation Programs
   • Letter to Reps. Istook and Vitter on Disadvantaged Business Enterprise
     Fraud at New Orleans Transportation Agencies
                                                                                38



 8 Improving Cost Effectiveness of $2.7 Billion in
      Information    Technology  Investments                                and
      Continuing to Enhance Computer Security
The Department of Transportation (DOT) is responsible for one of the largest
information technology (IT) investment portfolios among civilian agencies. It
relies on hundreds of computer systems to support key missions such as air traffic
control operations and distributions of billions of dollars in Federal funds.
Annually, DOT invests about $2.7 billion in IT acquisitions and operations. Over
80 percent of these investments are in air traffic control system modernization
projects, many of which have experienced significant cost overruns and schedule
delays. During fiscal year (FY) 2004, DOT made strides in increasing
departmental oversight of major IT investments and identifying opportunities to
consolidate systems in common business areas, as part of the newly developed IT
capital planning and investment control process. However, these efforts are in an
early stage of implementation and still present challenges to the Department.

During FY 2004, DOT also made a concerted effort to correct computer security
weaknesses identified in previous years. DOT had reported its information
security program as a material internal control weakness for FY 2001 through
FY 2003. Based on the progress the Department has made, we are of the opinion
that the DOT’s information security program could instead be considered a
reportable condition. However, continued improvements are still needed,
especially in the area of enhancing air traffic control systems security. DOT needs
to make certain that it follows through aggressively to implement planned
corrective actions in order to prevent the computer security program from
deteriorating into a significant deficiency next year.

Departmental Oversight of IT Investments and Security: DOT
Needs to Implement a Robust and Consistent Management
Review Process
The Department has established an Investment Review Board (the Board), chaired
by the Deputy Secretary, to review, approve, and modify major IT investments.
FY 2004 marked the first full year of the Board’s operations. The Board has
expanded its review beyond “cross-cutting” support systems, such as the
departmental accounting system, to include Operating Administration-specific IT
investments. This is a critical step because over 90 percent of the Department’s IT
budget is appropriated directly to the Operating Administrations. While the Board
meetings serve as a good vehicle to keep departmental senior management
                                                                                 39

informed of the Operating Administrations’ IT investments, more needs to be done
to influence the decision-making process for these investments.
• The Board needs to perform more substantive and proactive reviews of IT
  investments. The Board has reviewed 10 major projects, with a total life cycle
  cost of $7.5 billion, through September 2004. However, we determined that
  for 3 of the 10 projects, known management problems were not presented to
  the Board. A further review of Board meeting minutes showed that the Board
  raised substantive questions about the status of only 1 project; as a result, 9 of
  the 10 projects continued without modification. Overall, the Board is not being
  presented with the information it needs to make informed decisions about
  whether to continue, modify, or terminate projects. We also found that the
  Board focused its review on projects that were already considered troubled—
  those experiencing more than 10 percent cost increases or schedule delays.
  While reviewing these projects is important, the Board also needs to review
  “high risk” projects before they become troubled.
   This is especially needed for new, costly, and complex acquisition programs,
   such as the Federal Aviation Administration’s (FAA) En Route Automation
   Modernization Program. Also, projects, such as the Standard Terminal
   Automation Replacement System (STARS) and the Wide Area Augmentation
   System (WAAS), that have been re-baselined after encountering substantial
   cost increases and schedule delays, should remain on the Board’s watch list. In
   September 2004, the Department enhanced its selection criteria to identify
   these types of projects for Board review. This is a step in the right direction.

• FAA needs to enhance computer security over its air traffic control systems.
  However, the Board also has a responsibility to provide oversight of FAA’s
  progress to ensure that critical computer security weaknesses are corrected in a
  timely manner. While the Department has made good progress in securing
  computer system operations overall, we recently reported that air traffic control
  computer systems need to be better protected. First, FAA needs to commit to
  reviewing all operational air traffic control systems—at en route, approach
  control, and airport terminal facilities for adequate security—within 3 years.
  Second, FAA needs to commit to implementing a robust contingency plan to
  restore essential air service in the event of a prolonged disruption of service at
  an en route facility. In addition, FAA needs to finalize its implementation plan
  for using smart card technologies to authenticate air traffic control system
  users.
                                                                                 40


Departmental IT Funding and Operations: DOT Needs to Better
Coordinate Budget Requests to Align IT Resources With
Responsibilities
The departmental Chief Information Officer (CIO) office’s responsibilities have
changed significantly in recent years, as a result of the effort to enhance IT
security and the shutdown of the former Transportation Administrative Service
Center. In addition to providing IT policy directions, the CIO office is responsible
for providing IT security services and maintaining common network, e-mail, and
telephone systems in DOT Headquarters. The latter is reimbursed by the
Operating Administrations through the Department’s Working Capital Fund.
However, this funding arrangement was not clearly stated in either the CIO
office’s or the Operating Administrations’ budget submissions. Also, the CIO
office is planning multiple IT consolidation initiatives in the Department. These
activities have significant budget implications. The Department needs to adjust
the IT budget submission practice to better align resources with responsibilities
and to avoid the appearance of duplicate budget requests.

• The CIO office and Operating Administrations need to clearly describe the
  sources and uses of IT funds in budget submissions. The CIO office’s full
  responsibilities and funding levels are not reflected in its budget submission.
  For FY 2005, the CIO office’s direct budget request of $16.7 million accounts
  for only about 25 percent of the resources that will be provided during the year.
  The remaining 75 percent, or $50.8 million, will be reimbursed by the
  Operating Administrations through the Working Capital Fund. However, this
  shared funding responsibility was not clearly stated in the budget submissions.

• The Department needs to realign IT budget submission and project
  management responsibilities for proposed system consolidation projects. The
  Board has approved an initiative to consolidate multiple systems maintained by
  individual Operating Administrations in 11 common business areas for cost
  savings. For example, one of the initiatives is to consolidate office IT
  infrastructure ($192 million in annual investments) used to support desktop
  computers, local area networks, and e-mail transmissions. Historically, each
  Operating Administration made its own investment decisions and submitted
  separate budget requests to fund its system operations. Consolidating systems
  in these common business areas presents cost saving opportunities and helps
  eliminate the appearance of duplicate budget requests. However, it will require
  a more centralized approach and adjustments to the Department’s IT project
  management and budget submission practices.
                                                                            41

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

   • DOT Information Security Program
   • Security and Controls Over FAA En Route Center Computer Systems
   • Consolidated DOT Financial Statements for Fiscal Years 2003 and 2002
   • Shutdown of TASC’s Transportation Computer Center
                                                                                  42



 9 Restructuring the Intercity Passenger Rail System
      to Match Fiscal Capacity
The Department of Transportation (DOT) must continue to work with Congress to
break the cycle of appropriations without authorization for Amtrak and to realign
the size, operations, and governance of the intercity passenger rail system to match
the levels and sources of funding available. When David Gunn became president
of Amtrak in 2002, he implemented a strategy of maintaining and rebuilding the
existing Amtrak system. However, due to insufficient revenue from passengers,
state contributions, and Federal subsidies, this approach required further deferral
of needed capital investment. While this may have appeared reasonable for a short
period of time, with the expectation that reauthorization would validate Amtrak’s
strategy and was just around the corner, after more than
2 years, this approach is no longer workable. Unsustainably large operating
losses, poor on-time performance, and increasing levels of deferred infrastructure
and fleet investment are a clarion call to the need for significant changes in
Amtrak’s strategy. Amtrak’s management must find ways to reduce its need for
operating subsidies and set better priorities for its capital dollars. For instance,
programming millions of scarce capital dollars for fixing long-distance sleeper
cars when bridges on the Northeast Corridor are beyond their functional and
economic lives and must be refurbished and replaced is unacceptable.

Amtrak cannot continue to defer capital investment with the hope that
reauthorization will eventually provide sufficient funding to operate the entire
system. Reauthorization could take a variety of forms including: (1) a requirement
to focus development on corridors where passenger rail service can make
economic sense, (2) decreased funding and elimination of certain operations, (3)
increased funding for further development of the existing system, (4) maintaining
and funding the existing system, and (5) any combination of the above. But those
are decisions for Congress and the Administration to make in the course of
reauthorization.

Judging by the House and Senate marks for fiscal year (FY) 2005 for $900 million
and $1.2 billion, respectively, and in view of the fact there is no authorization for
Federal funding in 2005, it seems likely that Amtrak will receive substantially less
Federal funding than its request of $1.8 billion. This means that Amtrak’s Board
of Directors needs to direct Amtrak management to prepare a budget that does not
increase its already substantial deferred capital requirements and provides for
operation of the railroad, consistent with its likely appropriation and other
available funds.
                                                                                                                                      43

Amtrak’s 2003 operating loss increased by $144 million more than 2002 levels to
$1.3 billion, and its cash loss increased by $13 million to an overall loss of
$644 million.1 Through June 2004,2 Amtrak’s total operating and cash losses were
$945 million and $495 million, respectively. In fact, Amtrak’s cash loss has
exceeded $500 million in each of the last 10 years and is projected to do so for the
foreseeable future. Figure 9-1 shows Amtrak’s operating and cash losses for the
period from 1993 to 2003.

                             Figure 9-1. Operating and Cash Losses,
                               1993 Through 2003 ($ in Millions)

             $1,400
                                                                                                        1,271               1,293

             $1,200                           Operating Loss           Cash Loss                                  1,149

             $1,000                                                             916         944
                                                                       860
                                  833         808              797
               $800                                    798                                                  770
                      731
                                                                                                                      631       644
               $600         525
                                        578      554     558     549      561         579         561

               $400

               $200

                 $0
                       1993       1994        1995     1996    1997    1998     1999        2000         2001      2002      2003

                      Source: Amtrak’s annual financial statements.

Because Amtrak’s operating and capital needs have exceeded the public resources
provided, Amtrak sought external financing and is now burdened with a heavy
debt load and substantial principal and interest payments that must be satisfied in
the coming years. Just to service current and long-term debt and capital lease
obligations of $4.8 billion will require an average of about $300 million per year
(see Figure 9-2).




1
    The operating loss includes depreciation and other non-cash items that are subtracted to determine the
    cash loss.
2
    This assessment report covers Amtrak’s financial and operating results through the first 3 quarters of
    fiscal year 2004. Just within the last few days, Amtrak made available its preliminary, unaudited results
    for the entire fiscal year 2004. Amtrak reported fiscal year 2004 operating and cash losses of $1.3 billion
    and $635 million, respectively. These results are similar to the losses reported for fiscal year 2003. We
    will include an analysis of Amtrak’s audited 2004 results in our next report.
                                                                                                      44

Figure 9-2. Amtrak’s Historical and Forecast Debt Service Principal and
         Interest Payments, 1998 Through 2009 ($ in Millions)


           $400
           $350                                                           363
                                                                                    339
           $300                                                                           289
                                                             282                                274
           $250                                       247          257
                                                233
           $200
           $150       142   139          145
                                  131
           $100
            $50
             $0
                  1998 1999 2000 2001       2002 2003 2004 2005      2006 2007 2008 2009

                                    Principal     Interest     Total Debt Service

         Source: Amtrak’s annual financial statements.
         Note: 2006 assumes repayment of the $100 million RRIF loan and 2007 payments
         include early pay off of locomotive and passenger car leases, which reduce later year
         principal and interest payments.

The mismatch between the public resources made available to fund intercity
passenger rail service, the total cost of maintaining the system that Amtrak
continues to operate, and proposals to restructure the system make up the
dysfunction that must be resolved in the reauthorization process of the Nation’s
intercity passenger rail system. Currently, Amtrak receives direct funds from
ticket revenues, state operating support, and Federal subsidies. Amtrak also
benefits from state capital contributions for projects on rail infrastructure, stations,
and passenger equipment. For example, California’s Intercity Rail Capital
Program, dated March 2004, shows a total capital spending of $107 million in
2003-2004 for rail infrastructure. Most of this amount, $104 million, comes from
state and local sources; the remaining $3 million comes from Federal sources. In
spite of these multiple sources of funds, the total funding Amtrak receives from all
sources is not sufficient to maintain the current system in a state of good repair.

The Administration is willing to provide additional Federal funds if Amtrak
restructures operations to focus on developing short-distance corridors (routes
with end-to-end distances of less than 500 miles), targeting improvements to the
services that hold the greatest potential for future passenger growth. However,
continuing the stalemate in reauthorization will delay implementation of this or
any other restructuring options. In addition, the lengthy delay in finding and
confirming nominees to Amtrak’s Board of Directors diminishes the ability of the
Board to perform needed oversight and meet its corporate responsibilities as well
as work with Congress and the Administration to plan for the future of the
passenger rail system.
                                                                               45

In the meantime, the current grant process established by appropriation has been
positive for maintaining discipline in Amtrak’s budgeting and spending within
available funds, and the Department should maintain a strong oversight presence
to assure this discipline continues. However, this should not be relied upon as a
long-term solution.

The existing system is not sustainable at current funding levels, and corridor
development cannot progress in any meaningful way until reauthorization
legislation is enacted. The corridors are the sources of great potential passenger
benefits. They are an undeveloped viable alternative to congested roads and
airports until a consensus is reached on Amtrak’s role and on the direction of the
Nation’s future passenger rail system, as well as the means to achieve them.


For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

• Amtrak’s Loan Condition 8
• The Future of Intercity Passenger Rail Service and Amtrak (October 2, 2003)
• The Future of Intercity Passenger Rail Service and Amtrak (April 29, 2003)
                                                                                                            46



    10 Management Attention Needed to Strengthen
           Oversight of Title XI Loan Guarantees

As of June 30, 2004, the Maritime Administration’s (MARAD) consolidated
Title XI loan guarantee portfolio was valued at $3.6 billion, with another
$1.4 billion in pending loan guarantee applications. The loan guarantees are
designed to assist private companies in obtaining financing for the construction of
ships or the modernization of U.S. shipyards—with the Government holding a
mortgage on the equipment or facilities financed.
In September 2004, we issued a follow-up audit report of the Title XI Loan
Guarantee Program. We initiated this follow-up audit as a result of the Emergency
Wartime Supplemental Appropriation passed by Congress on April 16, 2003.3
The bill provided $25 million for the costs of new Title XI loan guarantees that
will remain available until September 30, 2005. However, Congress prohibited
MARAD from obligating or expending these funds “… until the Department of
Transportation Inspector General certifies to the House and Senate Committees on
Appropriations that the recommendations of report CR-2003-0314 have been
implemented to his satisfaction.”
MARAD has developed policies and procedures that address each of the five
recommendations from our March 2003 audit report. However, in verifying the
development of these policies and procedures, we found three new issues that need
to be fixed to ensure that the full intent of the recommendations from our March
2003 report are addressed. This is of considerable importance because MARAD
has determined that over 25 percent of its portfolio is at an elevated risk of default.
Consequently, we made three new recommendations to enhance management of
the Title XI program. Our certification of the adequacy of MARAD’s
implementation, as required by Congress, was contingent upon a satisfactory
written response from MARAD that would include an action plan with steps and
milestones to address these new recommendations. Subsequently, MARAD
provided a written response that satisfactorily addressed the intent of the
recommendations.
Strong leadership and staff committed to implementing the strengthened
procedures are critical to realize the intended benefits and reduce the risk profile
of the Title XI loan guarantee portfolio. The Department will need to monitor
MARAD’s progress to ensure appropriate actions are taken to mitigate risks to the


3
    Making Emergency Wartime Supplemental Appropriations for the Fiscal Year 2003, Public Law 108-11.
4
    OIG Report Number CR-2003-031, “Title XI Loan Guarantee Program,” March 27, 2003. OIG report can be accessed
     on our website: www.oig.gov.
                                                                                                                     47

$3.6 billion portfolio of loan guarantees outstanding as well as for new guarantees
that are approved.
Establishing good procedures is just the first step; fully implementing them is
another. While MARAD has worked to get satisfactory procedures in place, the
proof will be in the follow through and implementation with respect to specific
loan guarantee applications. Therefore, we will conduct a follow-up audit of this
implementation at a date still to be determined.


Status of Areas Identified in March 2003 Audit Report
Risk Mitigation. MARAD strengthened its procedures for review and approval of
new loan guarantee applications. For any waivers or modifications to the standard
loan approval criteria that would increase the risk to the Government, MARAD
performs a risk analysis and determines whether compensating measures are
available or necessary, and then presents the results of its analysis to the
Department of Transportation Credit Council.5 The Credit Council assesses the
financial viability of the application and its consistency with departmental credit
policies, Federal requirements, and departmental regulations on credit assistance.
The Credit Council will provide a recommendation to the Maritime Administrator
regarding the financial viability of the proposed project for consideration in
approving or disapproving the application.
External Review Process. MARAD and the Credit Council are working on
general guidelines that would require external reviews for applications from
companies for start-up operations—for starting a new service, applying new
technologies, or employing more complex finance transactions—and for large
dollar transactions that represent a significant portion of the potential borrower’s
debt. MARAD will seek Credit Council concurrence for any application that
MARAD believes does not require an external review.
Financial Monitoring. By far, the most difficult area for MARAD to address was
the establishment of a formal process for monitoring the financial condition of its
Title XI portfolio companies. MARAD re-established a “Credit Watch” process
for those companies experiencing some form of financial difficulty. These
borrowers had outstanding loan guarantees valued at more than $935 million, or
over 25 percent of its Title XI loan guarantee portfolio. Timely financial
monitoring will continue to be a challenge for MARAD, especially as new
___________
5
    Department of Transportation Order 2301.1, “Establishment of the Department of Transportation Credit Council,”
     June 10, 2004.
                                                                                   48

loan guarantees are approved and more frequent reporting requirements are
imposed on borrowers. MARAD must focus its efforts on catching up with
financial analyses of the borrowers in its current portfolio before expending
significant resources on new loan guarantee applications.

Asset Monitoring. MARAD established a more formal process to monitor whether
or not each guaranteed vessel is current with respect to its marine insurance,
classification, Coast Guard inspection, and other required certifications related to
its physical condition. MARAD also developed a better process for documenting
the actions taken with respect to seized assets and for maximizing recoveries from
their disposal. MARAD appointed a technical representative to monitor each
vessel and has contracted with outside parties to ensure that the vessels receive
appropriate maintenance and security measures.


New Areas Requiring Management Attention
Fully Fund Reserve Fund Requirements and Enforce Financial Agreements.
MARAD was not sufficiently enforcing the reserve requirements established to
mitigate the risks of noncompliant loans. MARAD has recently established a plan
to review each company’s Reserve Fund requirements. Once these reviews are
completed, MARAD has promised to take the necessary actions, utilizing all
remedies available to cure any defaults. MARAD has also promised to review
each company’s financial statements for any other defaults that have a substantial
financial impact or increase the financial risk to MARAD and pursue remedies to
those defaults.
Establish Effective Default Management. In our view, MARAD lacks sufficient
expertise or resolve to effectively address troubled loans. Because of the
magnitude of dollars involved and the specialized set of skills required to
effectively resolve complex financial situations, in coordination with the Credit
Council, MARAD is developing a detailed action plan to secure access to advisors
outside MARAD with the requisite capacity and technical sophistication to
negotiate solutions to distressed loans.
Acquire Suitable Financial Monitoring Software. MARAD’s rudimentary
financial monitoring system is inadequate to effectively manage its $3.6 billion
portfolio. Developing a computerized database system is essential for MARAD to
efficiently and promptly assess the financial condition of the companies in its
portfolio and to track trends in these companies’ finances and operations.
MARAD has been advised by the Office of the Secretary that the Department
wants to implement a monitoring system that can be used by all of the Department
credit programs for purposes of efficiency and consistency. MARAD has taken
the initial lead on this issue and has set forth a three-phase plan for the Department
to develop, acquire, and implement a new monitoring system. According to
MARAD, the first phase of this project is currently underway.
                                                                          49

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:

• Title XI Loan Guarantee Program (March 27, 2003)
• Title XI Loan Guarantee Program (June 5, 2003)
• Title XI Loan Guarantee Program (September 28, 2004)
                                                                                 50



 Emerging Issue: Ensuring Transportation Funds Are
 Adequate to Meet Growing Needs
The aviation and highway trust funds, which are major sources of transportation
funding, have historically served to account for receipts from taxes paid by users
of the highway and aviation systems and to fund, in turn, some of the costs of
those systems. The trust funds, which are supported by a mixture of passenger,
fuel, and user taxes, are not generating sufficient revenues today to cover
anticipated costs and needs.         At this time, the surface transportation
reauthorization, which establishes a framework for the Highway Trust Fund
agencies’ future budgets, has not been finalized.

Changes in the aviation sectors have resulted in less revenue flowing into the trust
fund. These include the economic downturn, and lower average airfares ($109 in
September 2004 versus $147 in September 2000). One of the primary components
of the Aviation Trust Fund is the 7.5 percent tax applied to airline tickets. The
lower average base ticket prices have significantly suppressed revenues flowing
into the Trust Fund.

At the same time, the costs of building, operating and maintaining the systems are
continuing to rise. There are a handful of options—none of them easy—to address
the expected mismatches between funding availability and projected funding
needs. These options include adopting a “do-nothing” approach; turning to the
General Fund, which is a problematic option during times of Federal deficits; or
reevaluating the current tax structure.

The Department of Transportation’s challenge in the next few years will be to
evaluate whether the current aviation funding method adequately matches system
costs and to determine the desirability and feasibility of alternative financing
methods.
                                                                                                                    51


Anticipated Aviation Trust Fund Revenues are Less than
Projected
Over the past 4 years, the Aviation Trust Fund has seen its revenue drop
significantly. In fiscal year (FY) 2000, the Trust Fund collected $10.5 billion in
revenue. In FY 2003, the Trust Fund collected only $9.3 billion in revenue, a
reduction of 12 percent. Those decreases can be attributed to lower ticket prices
and reductions in air travel. However, while revenues have declined, the Federal
Aviation Administration’s (FAA) budget has increased substantially over the same
time frame. Between FY 2000 and FY 2003, FAA’s budget increased from
$10.9 billion to $13.5 billion, an increase of approximately 24 percent. In FY
2005, FAA’s budget is expected to exceed Trust Fund revenues by over $3 billion.

                               Figure E-1. FAA: Agency's Budget vs. Trust Fund Revenues

                      $16                                                                                  $15.2
                                                                                               $14.9
                                                                        $13.8     $14.0
                      $14                         $13.5     $13.5
                                       $12.1                                                                  $12.1
                      $12                                                                         $11.4
                            $10.9                                                      $10.7
      $ in Billions




                                                     $9.9                  $9.7
                      $10                                        $9.3
                               $10.5      $10.1
                      $8

                      $6

                      $4

                      $2

                      $0
                            FY2000     FY2001     FY2001    FY2003      FY2004    FY2005*      FY2006*    FY2007*


                                                  FAA's Budget   Trust Fund Revenues

      Source: FAA and U.S. Treasury.
    * Projected revenue and budget (Reauthorized levels).

Historically, the difference between revenues and budget has been funded through
a combination of drawing down the prior surplus balance of the Trust Fund and
tapping the General Fund of the Treasury. However, both options are in jeopardy
in the very near term. The prior surplus balance of the Trust Fund has been drawn
down extensively. In FY 2000, the surplus balance was over $7 billion; by the end
of FY 2004, the estimated surplus balance had dropped to less than $3 billion (a
62-percent decrease).
                                                                                                      52


                                    Figure E-2. Aviation Trust Fund: Ending Balance

                       $10,000
                        $9,000
                        $8,000    $7,074        $7,344
                        $7,000
       $ in Millions
                        $6,000                                  $4,815
                        $5,000                                                $3,898
                        $4,000                                                           $2,717
                        $3,000
                        $2,000
                        $1,000
                            $0
                                 FY 2000       FY 2001        FY 2002        FY 2003   FY 2004 est.



   Source: FAA and U.S. Treasury.

There are a handful of options—none of them easy—to address the expected
mismatch between funding availability and projected funding needs. First, adopt a
“do-nothing approach” that would freeze budgets at the levels consistent with
resource projections. Second, turn to the General Fund to subsidize growing
shortfalls, which would entail FAA competing with other critical Federal
programs for scarce funding during a period when the Government is facing a
substantial Federal deficit. The percentages of FAA’s total budget paid with
general revenues have ranged from zero in FY 2000 to 22 percent in FY 2004.
Even if budgets were frozen at current levels—about $14 billion—spending down
the Trust Fund balance would not be sufficient. For example, in FY 2005, Trust
Fund revenues are projected to total $10.7 billion, $3.3 billion short of FAA’s
current $14 billion budget. With no growth allowed in FY 2005, the available
trust fund balance of $2.7 billion would fall $600 million short of covering the
balance. The third, and perhaps most painful, option would be to reevaluate the
current tax structure and determine whether alternatives exist to more efficiently
align users with costs through changes in the tax structure or by imposing user
fees.
                                                                                                             53



    Emerging Issue: Growing Interdependency Among
    DOT and Other Federal Agencies to Ensure Safe,
    Secure, and Efficient Transportation
The U.S. transportation system is a vast, diverse, interconnected network of modes
and is critical to our economy and national security, including military
mobilization and deployment.         As the backbone of the U.S. economy,
transportation comprises 11 percent of the gross domestic product, approximately
$1.1 trillion annually and supports one in eight jobs.

In the past few years, there has been a growing interdependency among Federal
agencies in executing their responsibilities to protect the Nation’s critical
transportation infrastructure, its citizens, and the environment. This is especially
noticeable in the areas of transportation security and environmental stewardship.

Transportation Security
The attacks of September 11, 2001, demonstrated the vulnerabilities of the
Nation’s transportation system to the terrorist threat. Terrorist events around the
world have also shown that transportation systems are often targets of attack;
roughly one-third of terrorist attacks worldwide target transportation systems. For
the Department of Transportation (DOT), the growing interdependency among
Federal agencies is never more evident than with the responsibility to secure the
U.S. transportation system and protect its users from criminal and terrorist acts,
especially in areas such as vulnerability assessments, emergency preparedness and
response, and hazardous materials oversight and enforcement activities.

Following September 11, 2001, a series of Homeland Security Presidential
Directives were issued communicating presidential decisions about the homeland
security policies of the United States. The Presidential Directives6 that address the
interdependency relationship among the various executive departments and
agencies are at too general a level to provide clear guidance on each department’s
role and responsibility to protect the Nation’s critical infrastructure, including the
transportation system. For example, although the Directives direct DOT and the
Department of Homeland Security (DHS) to, among other things, collaborate in
regulating the transportation of hazardous materials by all modes, including
pipelines, and to coordinate in establishing a national program and a multi-year
planning system to conduct homeland security preparedness exercises, it is not
6
    Homeland Security Presidential Directive-1, “Organization and Operation of the Homeland Security Council,”
    Homeland Security Presidential Directive/HSPD-7, “Critical Infrastructure Identification, Prioritization, and
    Protection,” issued December 2003; and Homeland Security Presidential Directive/HSPD-8, “National
    Preparedness,” issued December 2003.
                                                                                 54

clear from an operational perspective what “to collaborate” and “to coordinate”
encompass.

A September 2004 Memorandum of Understanding (MOU) was signed by the two
departments to improve their cooperation and coordination in promoting the safe,
secure, and efficient movement of people and goods throughout the transportation
systems.

Finalizing the MOU was the first of many critical steps accomplished by DOT in
what is a very dynamic process, but much more remains to be sorted out between
the two departments. A lack of clearly defined roles among the Federal entities at
the working level could lead to duplicating or conflicting efforts, less than
effective intergovernmental relationships, overuse of resources, and—most
importantly—raise the potential for problems in responding to terrorism.

DOT has identified more than 100 agreements either existing or under
development with DHS. The two departments need to complete their efforts in:

Sorting out security roles and responsibilities. Clearly defined roles and
responsibilities between DOT and DHS are required in order to avoid duplicating
or conflicting efforts, improve intergovernmental relationships, effectiveness in
the use of resources, and—most importantly—effectively responding to terrorism.
The delineation of roles and responsibilities between DOT and DHS cannot be
overstated. For example, some transit agencies had three separate vulnerability
assessments conducted by DOT and DHS. In regards to pipeline security, DOT
and DHS have not decided whether an agreement is required. However, Congress
has recommended that DOT’s Office of Pipeline Safety create an MOU with DHS
and the Federal Energy Regulatory Commission regarding pipeline safety and
security. Without clearly defining each agency’s responsibilities, it is unclear who
would be responsible for overseeing the protection of the Nation’s pipeline
infrastructure, especially in the event of a terrorist attack.

Breaking the bottlenecks where negotiations on agreements are being delayed.
There are several extremely important agreements that have not been finalized and
some that need to be initiated. If the agreements will involve funding agreements
or use of resources, such as inspectors, DOT and DHS need to sort out which
agency pays for what, how much it will cost, and what the terms will be. For
example, DOT and DHS are still negotiating agreements for rail and transit
security. These agreements must be finalized so it is clear who will fund research
and development, emergency communications, and the use of Federal Railroad
Administration inspectors.

Executing the conditions and terms of the agreements once they are finalized.
Once DOT and DHS execute an agreement clearly defining the roles and
                                                                               55

responsibilities of each agency, they must then follow through and execute the
terms.    Currently, the Federal Aviation Administration (FAA) and the
Transportation Security Administration (TSA) have a Memorandum of Agreement
addressing the collaborative relationship between the two agencies, including
hazardous materials issues. However, some of the provisions in the Agreement
have not been fully implemented. For example, in the Agreement, FAA and TSA
agreed to establish procedures for a referral process when TSA finds a passenger
with prohibited hazardous items in their carry-on baggage. Such items could
include fireworks, tear gas, flammable gas torches, or household bleach. No
system-wide referral procedures have been developed. FAA has developed an
automated system to track passenger violations of hazardous materials regulations.
However, instead of using FAA’s system, TSA is developing its own system.

Environmental Stewardship
The growing interdependency among Federal agencies can also be found in the
development of transportation infrastructure projects and environmental
stewardship. These projects include new highways and transit systems, airport
runways, and pipeline repairs or relocations.

Congress and the Administration felt that projects were still taking an inordinate
amount of time to receive construction approval and that these delays in high
priority projects create social, economic, and environmental problems. For
example, the median time to process environmental documents for major highway
projects in fiscal year 2004 was more than 4 years; and over the past 3 years, the
median time to develop and process environmental documents for major transit
projects was more than 3 years.

In response to legislation and Executive Orders, DOT Operating Administrations
and the Office of the Secretary have adopted polices and procedures for
streamlining environmental review processes. While improving the effectiveness
of transportation project delivery, the Administration has also proposed surface
transportation legislation calling for measures that would protect the environment
while improving the effectiveness of project delivery. In addition, Interagency
Task Forces have been established to expedite the environmental review and
permitting processes. The President issued an Executive Order in May 2003
establishing the Interagency Task Force comprised of 10 Federal agencies,
including DOT, which would develop and ensure implementation of a coordinated
environmental review and expedite the permitting process, so that pipeline repairs
could be made within the time period specified by Federal safety regulation.

Although an MOU has been signed in connection with the Executive Order, the
question is whether the MOU will be effective in expediting the environmental
review and permitting processes. Pipeline safety repairs and relocations are being
                                                                              56

delayed. In one case, it took nearly 3 years and more than 40 permits before the
operator was given approval to relocate the pipeline. In our opinion, the
provisions in the MOU are too general to provide clear guidance on each agency’s
responsibility for coordinating and expediting the environmental review and
pipeline repair permitting processes. Also, there are no deadlines to help foster
quicker reviews and decision processes, nor are the agencies held accountable for
not abiding by the provisions of the MOU. Task Force members need to work
together to define the roles and responsibilities of each agency for expediting
environmental reviews and permitting processes and establish deadlines to help
foster quicker reviews and processes. If the participating agencies cannot
effectively expedite the environmental review and permitting processes, it may be
necessary for Congress to take action.
                                                                                    57



 Emerging Issue: Meeting Human Resource Needs
 Given Retirements and Changing Skill Mix
The Department of Transportation (DOT) has made progress in its human capital
initiatives and is one of few Federal agencies to obtain a “green” status score in
this element of the President’s Management Agenda. However, human resources
management will be a concern for DOT for many years to come, particularly with
the upcoming retirement wave of air traffic controller and senior management
staff. The Department is in the early stages of addressing this issue and must
explore alternatives that will enable Operating Administrations to recruit and
retain top talent for the DOT workforce.

DOT’s nationwide workforce of approximately 60,000 is largely tenured and
experienced, and the Department benefits greatly from its employees’ consistent
baseline of skills and experience. However, this benefit is accompanied by a
potential risk as the average age of permanent DOT employees continues to rise,
and large numbers of employees begin closing in on retirement. For example, in
fiscal year (FY) 1999, the average age of a DOT employee was 44.7 years. At the
end of FY 2003, the average age went up to 46.1 years, with fewer than 2,500
employees under the age of 30, Department-wide. To illustrate, approximately
11 percent of DOT employees were eligible for retirement at the end of FY 2003.
In FY 2007, about 23 percent are projected to be eligible, including large numbers
of supervisory staff.

DOT’s agencies operate under United States Code Title 5; only the Federal
Aviation Administration (FAA) is partially exempt. Title 5 provides for central
Federal regulatory systems for human resource management, including highly
structured compensation and staffing procedures. The Department of Homeland
Security and the Department of Defense are leading in the development of options
such as organization-specific benefits packages for retirement, greater employer
contributions to benefits packages, and streamlined hiring and promotion based on
skills and achievements rather than specific occupational duties or seniority.

While the attrition increase may not significantly impact every Operating
Administration, some, such as FAA and the Federal Highway Administration
(FWHA), are already encountering challenges. As the two examples below
illustrate, these Operating Administrations are currently projecting rising attrition
rates and predicting problems with the prompt replacement of experienced,
mission-critical staff. Although it will be a challenge to hire and retain a sufficient
quantity of quality staff, there is also an opportunity for agencies to revamp their
organizations by hiring a workforce with the latest technical skills and knowledge
and placing them where they are needed most.
                                                                                                                       58



Addressing an Expected Surge in Controller Attrition
Attrition in FAA’s air traffic controller workforce is expected to rise sharply in
upcoming years as controllers hired after the 1981 Professional Air Traffic
Controllers Organization controllers’ strike become eligible to retire. FAA
currently estimates that nearly half (47.3 percent) of its controller workforce of
15,000 could leave the Agency between FY 2005 and FY 2012. Since new
trainees currently take an average of 3 years to become fully certified controllers,
FAA needs to begin identifying ways to make every stage of its process for hiring,
placing, and training new controllers more efficient and cost effective. While
addressing the expected surge in controller attrition represents a significant
challenge, there are opportunities as well. A point worth noting is that new
controllers will generally have lower base salaries than the retiring controllers they
replace (the average base salary of a fully certified controller today is about
$113,000). Over time, this could help reduce FAA’s average base salary and, in
turn, help reduce FAA’s operating cost growth. However, if FAA does not place
new controllers where and when they are needed, the potential reductions in base
salaries will be offset by lower productivity from placing too many or too few
controllers at individual facilities.

                  Figure E-4. FAA Air Traffic Controller Attrition
                        Compared to Retirement Eligibility*
      1600
                               Actual                                 Estimated
      1400
                                                                                                        1,186
      1200                                                                                          1,081
                                                                                                  971
      1000
                                                                                            864
       800                                                                      757 808

       600                                                                537
                                                              450 437
                                                       405
       400
                   253 271 238 246 235 257
       200 204

         0
           96

           97

           98

           99

           00

           01

           02

           03

           04

           05

           06

           07

           08

           09

           10

           11

           12
        19

        19

        19

        19

        20

        20

        20

        20

        20

        20

        20

        20

        20

        20

        20

        20

        20




                                  Attrition         Controllers Becoming Eligible to Retire
               Source: OIG Analysis of FAA Data.
             * Attrition data are as of May 2004. The number of controllers becoming eligible includes only those
               controllers reaching retirement eligibility in that year and does not include prior years. Retirement
               eligibility estimates are as of December 31, 2003.
                                                                                   59

Rebuilding the Federal Highway Administration’s Workforce
While Balancing the Changing Skill Mix
FHWA faces a growing set of challenges around the recruitment, retention, and
management of its workforce. FHWA is facing numerous vacancies in mission-
critical positions as large numbers of staff are expected to exit their positions,
according to the FY 2003 through FY 2007 FHWA Workforce Plan. About
60 percent of the FHWA workforce (1,732 employees) is expected to “turnover”
during these 5 years due to expected retirements, normal attrition, and vacancies
created by internal promotions. Of this amount, 170 represent senior staff, which
comprise 57 percent of FHWA’s managerial workforce (grades GS-15 and above).
FHWA also risks losing additional staff to the Title 5-exempt agencies, and this
could further drain its institutional knowledge.

However, this turnover also presents the opportunity to improve the workforce
skill mix within the Agency. As of June 30, 2004, engineers held almost
40 percent of FHWA’s 2,858 permanent positions, while financial specialists held
less than 4 percent. New missions, new technology, and new ways of doing
business have generated the need for a workforce with a broader range of technical
and management skills. For example, FHWA needs staff with financial
management skills to provide guidance on innovative financing techniques for
projects and to evaluate key state processes for managing Federal-aid funds.
Therefore, FHWA must address the gaps in staff numbers and in the critical skills
and competencies that will be needed to exercise program and project oversight,
while maintaining continuity of operations and retention of experienced staff and
program knowledge.

In February 2003, the House Appropriations Committee directed FHWA to
develop a strategy for achieving a more multidisciplinary approach towards its
oversight activities, to include identification of staff with private sector
management skills, such as financing and cost estimation. In response to this
direction, the FHWA Administrator agreed to develop the workforce skills needed
in the planning, environmental, financial, and engineering areas related to the
delivery of the Federal-aid highway program.

In FY 2004, FHWA established an Employee Multidisciplinary Development
Program focused on providing both existing and entry-level staff with specialized
+training in cost estimating, process reviews, project management, and other skill
areas required for effective oversight. FHWA reported that as of June 30, 2004,
60 employees were participating in FHWA’s Professional Development Program.
However, given the size of FHWA’s workforce and that some courses are still in
development, this approach will be slow in bringing about needed changes in the
skill sets and proficiency levels that are required throughout the various disciplines
and functional areas within FHWA.
EXHIBIT. COMPARISON OF FY 2005 AND 60
FY 2004 TOP MANAGEMENT CHALLENGES
          Items in FY 2005 Report                            Items in FY 2004 Report
• Getting the Most Value From Investments in • Protecting Taxpayer Investments in Highway and
  Highway and Transit Infrastructure Projects    Transit Infrastructure Projects. Continue efforts
                                                 to ensure that highway and transit projects are
                                                 delivered on-time, within budget, and free from
                                                 fraud; and aggressively fight motor fuel tax
                                                 evasion, which is a drain on revenue for the
                                                 Department.
• Delivering Air Traffic Control Services and • Improve Fiscal Discipline at FAA. Controlling
  Fielding New Air Traffic Control Equipment     operations cost growth and addressing
  While Controlling Costs in a Fixed Budget      fundamental problems with major acquisitions.
  Environment
• Increasing Aviation Capacity and Mitigating • None
  Delays
• Ensuring Safety in a Changing Aviation • Aviation Safety. Ensure FAA safety oversight
  Environment                                    keeps pace with industry and economic changes
                                                 while maintaining a focus on long-standing safety
                                                 issues.
• Ensuring That Surface Safety Programs Lead • Highway Safety.          Keep unsafe drivers and
  to More Lives Saved                            vehicles off the road by stopping states from
                                                 issuing Commercial Driver Licenses to
                                                 unqualified drivers, identifying high-risk motor
                                                 carriers for review, and implementing the
                                                 TREAD Act to facilitate proactive identification
                                                 of vehicle safety defects.
• Strengthening Financial Management to • Financial Accountability. Free up hundreds of
  Protect Federal Funds                          millions of dollars in idle funds, improve
                                                 oversight of billions of dollars in cost-
                                                 reimbursable contracts, and fully implement the
                                                 new Delphi financial management system.
• Holding the Line on Programs Conducive to • Disadvantaged Business Enterprise Program.
  Fraud                                          Increase oversight of the Disadvantaged Business
                                                 Enterprise Program to reduce fraud and ensure the
                                                 Program benefits truly disadvantaged businesses.
• Improving Cost Effectiveness of $2.7 Billion • Information Technology Management. Protect
  in Information Technology Investments and      critical information technology (IT) systems from
  Continuing to Enhance Computer Security        attack and maximize returns on DOT’s
                                                 $2.7 billion in annual IT investments.
• Restructuring the Intercity Passenger Rail • Intercity Passenger Rail. Restructure the intercity
  System to Match Fiscal Capacity                passenger rail system to match fiscal capacity.
• Management Attention Needed to Strengthen • MARAD Loan Defaults. Minimize financial loss
  Oversight of Title XI Loan Guarantees          to the Government from MARAD’s $3.7 billion
                                                 Title XI Loan Guarantee Program.
• None                                         • Hazardous Materials Safety and Security.
                                                 Strengthening the oversight of Hazardous
                                                 Materials (HAZMAT) shipments by increasing
                                                 cross-modal      inspection    and     enforcement
                                                 activities.




EXHIBIT. Comparison of FY 2005 and FY 2004 Top Management Challenges
